Fiscal Year 2013
United States Army
Corps of Engineers – Civil Works
Annual Financial Report




Service to the
Nation, Strength
for the Future
Service to the
Nation, Strength
for the Future
Fiscal Year 2013 United States Army Annual Financial Report




                                                                 1




                                        2
                      7
                             8                        3

            9
                                        4
                                                      5
                       10
                                        6


1  A Soldier negotiates a water obstacle during pre-mobilization
training. (New York Army National Guard Photo by Spc. Harley
Jelis) / 2 A girl gives her father a long awaited hug as he returns from
a nine-month deployment. (Photo courtesy of the U.S. Army) / 3 A
U.S. Army sargeant and tank gunner checks the battery box and
connections on his M1A1 Abrams tank. (U.S. Army by Sgt. Ken Scar,
7th Mobile Public Affairs Detachment) / 4  Soldiers clean an AH-
64D Apache after a training exercise. / 5 Providing security during
a counter-improvised explosive device (CIED) training exercise.
(U.S. Army Photo by Gertrud Zach) / 6  Pulling security during a
senior leader engagement in Afghanistan. (U.S. Army photo by Spc.
Alexander Naylor, Released) / 7  Performing a pre-flight inspection
on an RQ-7B Shadow. (U.S. Army photo by Spc. Margaret Taylor)
/ 8 A Soldier tests his ‘swiss seat’ while rappelling. (U.S. Army photo
by Sgt. Keith Rogers) / 9 A platoon sergeant assembles small arms
during competition. (Photo by Capt. John Farmer) / 10  Soldiers
attach the hook during sling load operations. (U.S. Army photo by
Visual Information Specialist Markus Rauchenberger)
Contents
  Message from the Assistant Secretary of the Army (Civil Works)	   iii

  Message from the USACE Chief Financial Officer	                    v

  Management’s Discussion and Analysis	                              1

  Civil Works Program
    Principal Financial Statements, Notes,
    Supplementary Information, and Auditor’s Report	                  35
ii FY 2013 United States Army Corps of Engineers Annual Financial Report




Service to the Nation,
Strength for the Future
Fiscal Year 2013 United States Army Corps of Engineers Annual Financial Report




  “the Army continues to be committed to managing the Nation’s water
  resources in a fiscally responsible manner”
The U.S. Army Corps of Engineers serves the Nation as one of the world’s
premier public engineering, design, and construction management agencies.
Minimizing flood risk, facilitating commercial navigation, and restoring
degraded ecosystems are a large part of what the approximately $5 billion annual
budget for the U.S. Army Corps of Engineers delivers for the Nation each year.
This investment in water resources is critical to the safety, security, and economy
of our great Nation.

Over half of the Army Civil Works program is focused on the operation,
maintenance, repair and replacement of major navigation, flood risk
management, including dams and levees, and hydropower infrastructure systems
as well as providing proper stewardship and recreation opportunities for the
public. A large portion of the Army Civil Works program is also focused on
constructing dam safety projects and large scale ecosystem restoration projects.

In a continued effort to maximize taxpayer dollars and return the highest value
to the Nation in terms of economic, social and environmental benefits, the Army
has established three focus areas for Fiscal Years 2014 and 2015:

     Deliver planning study solutions in a timely and cost-effective manner;

     Minimize cost, schedule, and scope growth on Civil Works construction
       projects; and

     Use risk and consequence assessments of USACE infrastructure
       components to prioritize maintenance.

As is demonstrated in the following pages, the Army continues to be committed
to managing the Nation’s water resources in a fiscally responsible manner.




                                 Jo-Ellen Darcy
                         Assistant Secretary of the Army
                                  (Civil Works)




                                                                                      Assistant Secretary of the Army (Civil Works)
                                                                                                                                      Message iii
iv FY 2013 United States Army Corps of Engineers Annual Financial Report




Service to the Nation,
Strength for the Future
Fiscal Year 2013 United States Army Corps of Engineers Annual Financial Report




  “continual hard work and commitment by USACE employees
  our financial business process led to our sixth consecutive “clean”
  unqualified opinion”
The United States Army Corps of Engineers (USACE) Civil Works Annual
Financial Report highlights our financial position and results of operations for
Fiscal Year (FY) 2013. Through USACE’s commitment to our financial business
processes and strong devotion to accountability, we provide reasonable assurance
over the reliability of our financial reporting for the approximately $17.9 billion
of FY 2013 funds obligated for our Civil Works activities.

FY 2013 was a difficult year in the financial management world due to the
Budget Control Act of 2011, which went into effect in March 2013. This law
created a level of uncertainty in the Army which included budget cuts and
furloughs. In response to these challenges, the USACE workforce remained
flexible and stayed true to their high standards and our internal controls
remained strong. Due to our comprehensive internal controls program,
dedicated personnel, and reliable financial management system, I am confident
that the financial information is presented accurately and reflects the results of
our operations.

One organization I would like to highlight is our USACE Finance Center
(UFC) located in Millington, Tennessee. The UFC is the backbone of our
finance and accounting operation and a driver in ensuring internal controls
remain strong. The UFC is responsible for all finance and accounting functions
related to disbursing and collecting funds to include financial reporting for our
Civil Works program appropriated funds, Revolving Fund and Trust funds.
The UFC is also responsible for the system operation and maintenance of the
Corps of Engineers Financial Management System (CEFMS). Due to the
strength of our financial management system (CEFMS) and the dedication of
our staff at the UFC, we have been able to achieved success in creating auditable
financial statements.

Our outstanding Management team is responsible for maintaining strong
internal controls over financial reporting. Internal control over financial
reporting is a process designed by our Resource Management team and executed
by personnel at our field operating activities. I am proud to say that due to the
continual hard work and commitment by USACE employees our financial
business process led to our sixth consecutive “clean” unqualified audit opinion
and for the second straight year our operations are free from material weakness.

I am proud of everyone within USACE who continues to strive toward greatness
in financial management. This report and the accomplishments it describes
reflect their extraordinary dedication to duty.                                       USACE Chief Financial Officer




                                Wesley C. Miller
                              Chief Financial Officer
                                                                                                                      Message v
vi FY 2013
   FY 2013 United States Army Annual
                              Corps ofFinancial
                                       EngineersReport
                                                  Annual Financial Report



Service to
the Nation,
Strength for
the Future




   Aerial of the Carlyle Lake Dam. (Photo by Allan Dooley)
An osprey eating a fish in a tree at the Albeni Falls Dam.
(Photo by Park Ranger Ashley Jones)




                                                       Overview
                                                       The United States (U.S) Army Corps of Engineers (USACE) is comprised
The Corps’ multi-                                      of two major programs: the Civil Works program and the Military
                                                       program. These financial statements represent only the Army Civil Works
faceted mission is                                     program (USACE-CW). The Military program is reported within the
accomplished in an                                     Army General Fund Financial Statements.

environmentally-                                       Mission
sustainable and                                        The USACE-CW mission is to (1) contribute to the national welfare and
economically- and                                      serve the nation with quality, responsive development and management
                                                       of the country’s water resources; (2) protect, restore, and manage the
technically-sound                                      environment; (3) respond to disasters and aid in recovery efforts; and,
manner through                                         (4) provide engineering and technical services. This multi-faceted mission

                                                                                                                                    Management’s Discussion and Analysis
                                                       is accomplished in an environmentally-sustainable and economically- and
partnerships with                                      technically-sound manner through partnerships with other government
other government                                       agencies and nongovernment organizations.

agencies and                                           Developing and Managing Water Resources
nongovernment                                          The original role of the USACE, as it related to developing and managing
organizations.                                         water resources, was to support lake, riverine, coastal, and island
                                                       navigation by maintaining and improving federal navigation channels.
                                                                                                                                                                           Civil Works 1




                                                       Over the years, and through subsequent legislation, the USACE-CW role
                                                       expanded to include: (1) flood risk management; (2) improvement of
                                                       aquatic habitat; (3) generation of hydroelectric power;
2 FY 2013 United States Army Corps of Engineers Annual Financial Report




Environmental managers with the U.S. Army Corps of Engineers Sacramento District survey plantings along the lower American River in Sacramento, CA,
designed to reestablish riverbank habitat function for endangered fish like salmon and steelhead trout. (U.S. Army photo by Todd Plain/Released)


(4) creation of recreation opportunities; (5) provision of                  (6) regulation of discharges into navigable waters; and,
water storage for municipal and industrial water supplies;                  (7) emergency planning and management.

Protecting, Restoring and Managing the Environment
The Rivers and Harbors Act of 1890 required the USACE                       the USACE-CW responsibility for regulating discharges
to prevent the obstruction of navigable waterways. As                       into U.S. waters, including the country’s wetlands.
environmental concerns grew in the mid 20th century,                        The USACE-CW’s environmental responsibilities
several statutes were passed promoting conservation of                      have continued to increase through legislation, and
fish and wildlife. The National Environmental Policy Act,                   now include aquatic ecosystem restoration, clean-
enacted in 1970, further emphasized the need to consider                    up of early atomic energy program sites, and overall
environmental impacts when planning projects. The                           stewardship responsibilities.
Clean Water Act of 1972 greatly broadened the scope of

Responding and Assisting in Disaster Relief
Throughout history, the U.S. has relied on the USACE                        disasters under the Robert T. Stafford Disaster Relief and
for help both in times of natural and man-made disasters.                   Emergency Assistance Act (P.L. 93-288, as amended).
The USACE-CW responds to natural disasters under                            The USACE-CW primary role in emergency relief
the Flood Control and Coastal Emergency Act (Public                         and recovery operations is to provide public works and
Law [P.L.] 84-99, as amended) and to man-made                               engineering support.

Providing Engineering Support and Technical Services
In Titles 10 and 33 of the U.S. Code (U.S.C.), Congress                     organizations. Additional authority to provide services to
expressed its intent for the USACE-CW to provide services                   all federal agencies is found in Titles 15, 22, and 31, which
on a reimbursable basis to other federal entities; state, local,            include providing services to foreign governments.
and tribal governments; private firms; and international
THE CIVIL WORKS PROGRAM
The USACE classifies its work by business lines, which                       Through the American Recovery and Reinvestment Act
provide a framework for executing the USACE-CW;                              (ARRA) of 2009, the USACE-CW received $4.6 billion.
however, the associated civil works activities transcend                     All of the USACE-CW business lines, except emergency
individual business lines and often produce multiple                         management, received ARRA funding for various programs,
water resource benefits for the Nation. Consequently,                        projects, and activities. Specific information on ARRA
close coordination between the business lines is required                    funding may be found at the USACE-CW Recovery
to deliver quality, timely products and services as well as                  website at http://www.usace.army.mil/recovery.The USACE
achieve the USACE-CW strategic goals. The business line                      will continue to expend the ARRA funds received in
managers continually seek comprehensive, collaborative,                      FY 2009 through FY 2015. These funds are included in the
and sustainable solutions that often involve multiple                        expenditure totals in the business line performance tables.
business lines. A description of the business lines of the
USACE-CW follows Figure 1. Figure 1 lists the business                       Through the Disaster Relief Appropriations Act, 2013
lines that receive direct appropriations and the funds                       (P. L. 113-2), the USACE-CW received $5.1 billion
used for executive direction and management for fiscal                       (net of sequestration) for repairs, rehabilitation, and
year (FY) 2013.                                                              recovery from the effect of Hurricane Sandy. Funds were
                                                                             provided in five appropriations. The funds will be used
                                                                             primarily for flood risk management, including developing
FIGURE 1. FY 2013 USACE-Civil Works Initial
Appropriations by Business Line
                                                                             a comprehensive risk management plan, accelerating
                                                                             sustainable risk management projects, repairing and
                        $5                                                   restoring damaged flood risk management and shore
                                                                             protection projects, as well as dredging affected navigation
                                                                             channels. These funds are available until expended and,
                               $180
                     $23




                                                                             in the case of studies and construction, will be used over a
               $5
                       9




                 1                                                           period of years to implement comprehensive recovery and
          $1                                                                 sustainable development plans; these funds are included
            00
    $91                                                                      in the expenditure totals in the applicable business line
                                                                             performance tables.
  $419
 $183                                                      $1,717
                                                                             Navigation
                                                                             The Navigation business line is responsible for ensuring
   $167                                                                      safe, reliable, efficient, and environmentally sustainable
                                                                             waterborne transportation systems for the movement of
                                                                             commercial goods, as well as for national security purposes.
                                                                             It fulfills this responsibility through a combination of

                                                                                                                                            Management’s Discussion and Analysis
                                                                             capital improvements and the operation and maintenance
                                                                             of existing infrastructure projects. The Navigation business
                               $1,557                                        line is vital to the nation’s economic prosperity; 97% of
                                                                             America’s overseas international trade, by volume, and
                                                                             64% of its trade, by value, moves through its ports. Our
                                                                             nation’s Marine Transportation System (MTS) encompasses
  Navigation                            Environment - FUSRAP                 a network of USACE-CW-maintained navigable channels,
  Flood Risk Management                 Emergency Management
                                                                             waterways, and infrastructure, as well as publicly- and
  Hydropower                            Recreation
                                                                             privately-owned vessels, marine terminals, intermodal
  Regulatory                            Water Storage for Water Supply
                                                                                                                                                                                   Civil Works 3




                                                                             connections, shipyards, and repair facilities. The MTS
  Environment - Ecosystem Restoration   Executive Direction and Management
  Environment - Stewardship
                                                                             consists of approximately 12,000 miles of inland and
                                                                             intracoastal waterways with 220 locks at 171 sites;
                                                                             approximately 300 deep-draft and over 600 shallow-draft
4 FY 2013 United States Army Corps of Engineers Annual Financial Report




Rainfall in early July brought the pool elevation at Cold Brook reservoir to an elevation of 3585.0 feet, which is slightly above the top of the conservation pool level.
(Photo by Paula Andrie)


coastal and Great Lakes channels and harbors, extending                               In FY 2013, Navigation, estimated at $1.7 billion,
13,000 miles, and including 21 locks; and more than                                   accounted for just over 36% of new USACE-
900 coastal structures and 800 bridges. The USACE is                                  CW appropriations.
responsible for maintaining all of these entities.

Flood Risk Management
The Flood Risk Management (FRM) business line reduces                                 ethical, political, and legal considerations. The USACE-
the risk to human safety and property damage in the                                   CW approach to FRM relies on productive collaborations
event of floods and coastal storms. The USACE-CW has                                  with partners and stakeholders (e.g., the Federal Emergency
constructed 8,500 miles of levees and dikes, 383 reservoirs,                          Management Agency (FEMA), the Department of Housing
and more than 90 storm damage reduction projects                                      and Urban Development (HUD), the National Oceanic
along 240 miles of the nation’s 2,700 miles of shoreline.                             and Atmospheric Administration (NOAA), affected state
With the exception of reservoirs, upon completion,                                    agencies, sponsors, and citizens) that heighten the nation’s
most infrastructures built under the auspices of FRM are                              awareness of flood risks and consequences.
transferred to the sponsoring cities, towns, and special use
districts that own and operate the projects.                                          The FRM business line has compiled an impressive record
                                                                                      of performance, yielding a six-to-one return on investment;
Over the years, the USACE-CW mission of addressing                                    that is, the business line saves six dollars for each dollar
the causes and impacts of flooding has evolved from                                   spent. It has also helped reduce the risk to human safety by
flood control and prevention to more comprehensive                                    providing timely flood warnings that afford sufficient time
FRM. These changes reflect a greater appreciation for                                 for evacuation.
the complexity and dynamics of flood problems—the
interaction of natural forces and human development—                                  In FY 2013, the FRM business line was estimated at
as well as for the federal, state, local, and individual                              $1.6 billion and accounted for 33% of the USACE-CW
partnerships needed to thoroughly manage the risks caused                             new appropriations.
by coastal storms and heavy rains.
                                                                                      Environment
Flood risk management is the process of identifying,
evaluating, selecting, implementing, and monitoring actions                           The USACE-CW has three distinct areas that are focused
to mitigate levels of risk. Its goal is to ensure scientifically                      on the environment: (1) aquatic ecosystem restoration;
sound, cost-effective, integrated actions that reduce risks                           (2) stewardship of USACE-CW lands; and, (3) Formerly
while taking into account social, cultural, environmental,                            Utilized Sites Remedial Action Program (FUSRAP).
Aquatic Ecosystem Restoration. The USACE-CW mission              Regulation of Aquatic Resources
in aquatic ecosystem restoration is to help restore aquatic
habitat to a more natural condition in ecosystems in which       In accordance with the Rivers and Harbors Act of 1899
structure, function, and dynamic processes have become           (Section 10), and the Clean Water Act of 1972 (Section
degraded. The emphasis is on restoration of nationally- or       404), as amended, the USACE regulates work in, over,
regionally-significant habitats where the solution primarily     and under navigable rivers as well as the discharge of
involves modifying the hydrology and/or geomorphology.           dredged and fill material into U.S. waters, including
In FY 2013, the Aquatic Ecosystem Restoration business           wetlands. The USACE implements many of its oversight
line received approximately $419 million, which                  responsibilities by means of a permit process. Throughout
translates to just fewer than 9% of the total new USACE-         the permit evaluation process, the USACE complies with
CW appropriations.                                               the National Environmental Policy Act and other applicable
                                                                 environmental and historic preservation laws. In addition
Environmental Stewardship. Environmental stewardship             to federal statutes, the USACE also considers the views
focuses on managing, conserving, and preserving                  of other federal, tribal, state and local governments,
natural resources on 12 million acres of land and water          agencies, and interest groups, as well as the general public
at 470 multipurpose USACE-CW projects. USACE                     when rendering its final permit decisions. Regulatory
personnel monitor water quality at the USACE-CW dams             responsibilities include evaluating minor activities, such as
and operate fish hatcheries in cooperation with state wildlife   driveways for small landowners as well as large water supply
agencies. This business line encompasses compliance              and energy project proposals which affect billions of dollars
measures to ensure USACE-CW projects (1) meet federal,           of the nation’s economy.
state and local environmental requirements; (2) sustain
environmental quality; and, (3) conserve natural and             In FY 2013, at $183 million, the Regulatory
cultural resources. In FY 2013, Environmental Stewardship        appropriation accounted for 3.9% of total USACE-CW
received $91 million, an amount comprising 1.9% of the           new appropriations.
new USACE-CW appropriations.

FUSRAP. Under FUSRAP, the USACE-CW cleans up                     Emergency Management
former Manhattan Project and Atomic Energy Commission            Throughout USACE history, the U.S. has relied on the
sites, making use of expertise gained in cleansing former        USACE-CW in times of national disaster. Emergency
military sites and civilian hazardous waste sites under the      management continues to be an important part of the
Environmental Protection Agency’s Superfund Program. In          USACE-CW, which directly supports the Department of
FY 2013, FUSRAP received $100 million, or approximately          Homeland Security (DHS) in carrying out the National
2.1% of the total new USACE-CW appropriations.                   Response Framework. It does this by providing emergency




                                                                                                                                 Management’s Discussion and Analysis
                                                                                                                                                                        Civil Works 5




Hurricane Sandy Damage Assessment. (Photo by Justin Ward)
6 FY 2013 United States Army Corps of Engineers Annual Financial Report




An Army Corps of Engineers Natural Resource Specialist inspects levees between Jacksonport and Newport, AR. (Photo by Laurie Driver)


support in public works and engineering and by conducting                      Hurricane Sandy-related work in the Flood Control and
emergency response and recovery activities under authority                     Coastal Emergencies (FCCE) appropriation.
of P.L. 84-99. In a typical year, the USACE responds
to more than 100 flood and coastal storm events and
                                                                               Hydropower
30 presidential disaster declarations; its highly-trained
workforce is prepared to deal with both man-made and                           The USACE-CW multipurpose authorities provide
natural disasters.                                                             hydroelectric power as an additional benefit of projects built
                                                                               for navigation and flood damage reduction. The USACE is
Recovery and repair is integral to maintaining FRM
                                                                               the largest owner-operator of hydroelectric power plants in
infrastructure that has been affected by a disaster so that
                                                                               the U.S., and one of the largest in the world. The USACE
it can function as designed and intended during future
                                                                               operates 350 generating units at 75 multipurpose reservoirs,
flood events.
                                                                               mostly in the Pacific Northwest; they account for about
The USACE-CW not only contributes to domestic                                  24% of America’s hydroelectric power and approximately
emergency management efforts, but it also plays a role                         3% of the country’s total electric-generating capacity. Its
on the international stage through its participation in                        hydroelectric plants produce nearly 70 billion kilowatt-
civil-military emergency preparedness. In support of the                       hours each year, which is sufficient to serve nearly 7 million
Department of Defense (DoD), the USACE-CW shares                               households, or roughly 11 cities the size of Seattle,
emergency management knowledge and expertise with                              Washington. Hydropower is a renewable source of energy,
U.S. allies and partners in the former Soviet Republics and                    producing none of the airborne emissions that contribute to
Eastern Europe. This valuable program brings together key                      acid rain or the greenhouse effect.
leaders, and builds relationships among nations.
                                                                               In FY 2013, the Hydropower business line, at
In FY 2013, through regular appropriations, the Emergency                      approximately $167 million, accounted for 3.5% of the
Management business line received approximately                                USACE-CW new appropriations.
$25 million to ensure the USACE is prepared to respond to
natural disasters. It also received $26 million for continuity                 Recreation
of operations activities, non-natural disaster preparedness
activities, and facility protection. This $51 million received                 The USACE is an important provider of outdoor recreation,
by Emergency Management accounted for 1.1% of the                              which is an ancillary benefit of its flood prevention and
total new appropriations for the USACE-CW. Through the                         navigation projects. The Recreation business line provides
Disaster Relief Appropriations Act, 2013 , the Emergency                       quality outdoor public recreation experiences in accordance
Management business line also received $958 million for                        with its three-part mission to (1) serve the needs of present
                                                                               and future generations; (2) contribute to the quality of
American life; and, (3) manage and conserve natural                    Water Storage for Water Supply
resources consistent with ecosystem management principles.
                                                                       Conscientious management of the nation’s water supply
The USACE manages 4,248 recreation sites at 422 projects               is critical to limiting water shortages and lessening
on 12 million acres of land. During FY 2013, 10% of the                the impact of droughts. The USACE-CW has an
U.S. population visited a USACE-CW project at least once.
                                                                       important role in ensuring that homes, businesses, and
These visitors spent $16 billion pursuing their favorite
                                                                       industries, nationwide, have enough water to meet
outdoor recreation activities.
                                                                       their needs. It retains authority for water supply in
In FY 2013, the Recreation business line accounted for                 connection with construction, operation and modification
approximately $239 million, or 5.1% of the USACE-CW                    of federal navigation, flood damage reduction, and
new appropriations.                                                    multipurpose projects.

                                                                       In FY 2013, the Water Supplybusiness line accounted for
                                                                       approximately $5 million, or one-tenth of 1% of USACE-
                                                                       CW new appropriations.

ORGANIZATIONAL STRUCTURE
The Workforce
USACE is an executive branch agency within the DoD,                    its expertise through contracts with civilian companies for
and a major command within the U.S. Army. The                          all construction work and much of its design work.
USACE consists of two major programs—civil works
and military construction—which are supported by two                   The USACE organization consists of a headquarters located
smaller, separate sub-programs—real estate, and research               in Washington, D.C., nine major subordinate commands
and development. The entire organization employs                       (MSCs), and 46 districts, 38 of which carry out civil works
approximately 37,000 people, including approximately                   responsibilities in the United States, and 6 specialized
765 Army officers, noncommissioned officers, and enlisted              centers. Most of the MSC and district geographic
soldiers. Approximately 24,000 civilian employees work                 boundaries are aligned with watershed boundaries. There
to support the USACE-CW. With the appointment of the                   are also several world-renowned research and development
first Chief Engineer in 1775, the USACE has a long history             laboratories and other offices contributing to the USACE
and is today one of the world’s largest public engineering,            mission. Figure 2 shows the division boundaries, which are
design, and construction management agencies. It leverages             defined by watersheds and drainage basins.




                                                                                                                                     Management’s Discussion and Analysis
                                                                                                                                                                            Civil Works 7




A welder working at Ensley Engineer Yard. (Photo by Stacy Ouellette)
8 FY 2013 United States Army Corps of Engineers Annual Financial Report


Through its Pacific Ocean and South Atlantic Divisions,         USACE-CW divisions are regional offices responsible for
the USACE also has civil works responsibilities in the          the supervision and management of subordinate districts,
Territory of American Samoa, the Territory of Guam,             to include oversight and quality assurance. Districts are the
the Commonwealth of the Northern Mariana Islands,               foundation of the USACE-CW, responsible for executing
the Commonwealth of Puerto Rico, and the U.S.                   the USACE-CW mission.
Virgin Islands.
                                                                The distribution of employees within the USACE-CW
The USACE-CW leadership is provided by a presidentially-        highlights the customer focus: 95% of employees work at
appointed civilian Assistant Secretary of the Army for Civil    the district level (in labs or field operating agencies) and
Works (ASA(CW)) who is charged with responsibility for          demonstrate the fact that project management, operations,
overall policy direction and oversight for all aspects of the   and maintenance activities are performed at the local
civil works mission. An Army officer serves as the Chief        (district) level. The USACE-CW contracts out all of its
of Engineers to oversee execution of both the Civil Works       construction, and most of its design work, to civilian
and Military programs and ensure that policies established      companies. As many as 150,000 people are indirectly
by the ASA(CW) are applied to all aspects of the USACE-         employed in support of Civil Works projects, and the
CW. The Chief of Engineers delegates authority for the          USACE-CW contractual arrangements have served the
leadership and management of the USACE-CW to the                nation well in times of emergency.
Deputy Commanding General for Civil and Emergency
Operations and to the civilian Director of Civil Works.         The USACE-CW is funded primarily through Energy and
                                                                Water Development appropriations.

FIGURE 2. USACE-CW Boundaries
 FIGURE 3. Civil Works Levels of Authority


                ASA (CW)
           Provides policy guidance


                                                 CIVIL WORKS PROGRAM
           Chief of Engineers
                                                 PERFORMANCE
           Applies policy guidance               The USACE-CW has a direct impact on America’s prosperity, competitiveness,
                                                 quality of life, and environmental stability. In September 2011, the USACE
                                                 leadership published a new strategic plan to provide a framework for enhancing
                                                 the sustainability of America’s resources. The plan’s strategic goals support the
DCG for Civil & Emergency Operations             USACE-CW strategic direction over the five-year period, FY 2011–FY 2015.
   Acts on behalf of the Chief of Engineers
             in policy guidance                  In addition, in support of the Administration’s drive toward a more efficient,
                                                 effective, and transparent government, the USACE developed four Agency
                                                 Priority Goals for FY 2012 and FY 2013 that reflect the high and direct public
                                                 value of the USACE-CW. These goals are:
         Director of Civil Works
   Acts on behalf of the DCG for Civil and
  Emergency Operations in policy guidance
                                                 Priority Goal 1 (Aquatic Ecosystem Restoration): By September 30, 2013,
                                                 consistent with the federal restoration strategies developed for each unique
                                                 ecosystem, the USACE-CW will show progress through completion of identified
                                                 study, design, and construction activities that will contribute to a long-term goal
               8 Divisions                       of improved ecological conditions in the Great Lakes Basin, the Everglades, and
       Supervise and manage districts
   Perform district-level quality assurance      the Columbia River Basin.

                                                 Priority Goal 2 (Flood Risk Management): Reduce the nation’s risk of flooding
                                                 that places individuals at risk of injury or loss of life and damages property. By
                                                 September 30, 2013, reduce at least 10 dam safety classification ratings, conduct
  Plan                                Operate
                                                 at least 600 levee risk screenings, and improve the condition rating for at least
               38 Districts
                                                 13 high-consequence projects, which have either failed or have inadequate
 Design          Construct            Maintain
                                                 condition ratings.

                                                 Priority Goal 3 (Inland Navigation): Help facilitate commercial navigation by
                                                 providing safe, reliable, highly cost-effective, and environmentally-sustainable
                                                 waterborne transportation systems. Through September 30, 2013, limit annual

                                                                                                                                       Management’s Discussion and Analysis
                                                 lock closures due to mechanical failures of main lock chambers on high and
                                                 moderate use waterways to no more than 46 for closures lasting more than one
                                                 day, and no more than 26 for closures lasting more than one week.

                                                 Priority Goal 4 (Hydropower): Improve the current operating performance
                                                 and asset reliability of hydropower plants in support of Executive Order
                                                 13514. By September 30, 2013, the USACE-CW, the Department of Energy
                                                 Power Marketing Administrations (PMAs), and PMA preference customers
                                                 will implement sub-agreements that will provide funds to accomplish major
                                                 maintenance and/or major rehabilitation on existing power plants.
                                                                                                                                                                              Civil Works 9




                                                 The FY 2013 performance results for these Agency Priority Goals is discussed in
                                                 the relevant business line sections.
10 FY 2013 United States Army Corps of Engineers Annual Financial Report




Using an airboat to measure ice on Lake Pepin, near Wabasha, MN. Located on the Mississippi River between Red Wing and Wabasha, MN, the lake is used as a
benchmark because the ice melts slower in this area due to the lake width and the slower current. (Photo by Patrick Moes)

Strategic Goal 1: Assist in Providing Safe and Resilient Communities and Infrastructure.

FLOOD RISK MANAGEMENT
Objectives:

      Invest in environmentally-sustainable flood and                       DSAC I, II, III dams with completed studies. The
        coastal storm damage reduction solutions through                      number of DSAC I, II, and III projects with complete dam
        the safe operation of flood reduction infrastructure                  safety modification reports.
        when benefits exceed costs.
                                                                              DSAC I, II, III dams under remediation. The number of
      Reduce the nation’s risk of flooding, which                           DSAC I, II, and III projects under remediation construction.
        damages property and places individuals at risk of
        injury or loss of life.                                               Performance Results—Construction and Investigations

Funding History: The first rows of Table 1 and Table 2                        Construction funding was used to continue work on
display FRM funding.                                                          69 construction projects, completing four construction
                                                                              projects and bringing on line additional benefits that will
Performance Indicators: To measure its progress in                            provide flood risk reduction to 1.8 million people and
meeting Goal 1 objectives, the USACE uses performance
                                                                              prevent approximately $384 million in potential damages.
indicators described below; the results are shown in Tables
                                                                              Construction funding was provided to complete Wolf
1 and 2.
                                                                              Creek Dam and also used to continue construction work
Construction measures for Flood Risk Management                               on three additional high-risk DSAC I dams (Center Hill,
                                                                              Clearwater, and Herbert Hoover) and six DSAC II dams
Flood damage prevented. The estimated annual dollars                          (Bluestone, Dover, Canton, Emsworth, Bolivar and East
of property damage avoided through USACE-CW flood                             Branch). In addition, three DSAC I dams (Addicks,
damage reduction projects completed during the fiscal year.                   Barker, and Pine Creek) and one DSAC II dam (Rough
Ten-year moving average. The 10-year moving average of                        River) are in the pre-construction engineering and design
actual flood-damage reduction benefits attributable to all                    phase of construction.
completed USACE-CW flood damage reduction projects.                           Dam Safety and Seepage/Stability Correction Program
Dam safety action class (DSAC) I, II, III dams under                          construction funds were used to complete nine dam safety
study. The number of DSAC I, II, and III projects under                       studies and continue efforts on another 37. Completed
dam safety and seepage/stability study.                                       studies included three Dam Safety Modification Reports
                                                      (Isabella, Pine Creek, Addicks and Barker), five Issue Evaluation Studies (Nolin,
                                                      Green River, Brookville, Hammond, and JE Roush) and one Post Construction
                                                      Risk Assessment (Bluestone). Completed dam safety studies either advised
                                                      proceeding to construction, determined specific project features that require
                                                      more detailed analysis, or found that project risks are now lessened either by
                                                      interim repairs or by a better understanding of the issues.

                                                      Investigations funding was used to advance 44 continuing feasibility studies
                                                      and preconstruction, engineering, and design (PED) activities for a total
                                                      of $46 million. A portion of the funding was used to complete 16 studies
                                                      and PED on high priority studies that will recommend justified flood risk
                                                      management measures for communities in high risk areas. Investigation funds
                                                      were used to continue high priority flood risk management coordination
                                                      program activities that support state and local flood risk mitigation priorities.
                                                      Throughout the country, 6 new state-level Silver Jackets teams were established
                                                      in FY 2013 to facilitate federal and state coordination and develop collaborative
                                                      solutions to address state flood risk mitigation priorities bringing the total
                                                      number of state teams to 41. Additionally, in response to the historic
                                                      flooding in 2011 on the Mississippi River, investigation funds were used to
                                                      initiate the collection of flood and flow data throughout the Mississippi River
                                                      and Tributaries System in order to assess potential changes in the systems
                                                      performance and capability to provide adequate system performance to meet its
                                                      authorized project design.

TABLE 1. Construction & Investigation—Flood Risk Management
                                                                                                                                 FY 2013
                                                           FY 2010              FY 2011             FY 2012               Target         Actual
Expenditures in millions of dollars                            $2,767               $2,172              $1,427                 $969         $1,282
Flood damage prevented in millions
                                                                                                                          Note 1
of dollars                                                        $28.0                 $9.8               $27.5                                      $384
Ten-year moving average in billions
                                                                                                                                     Note 1
of dollars                                                        $25.2                $37.1               $36.2
DSAC I, II, III dams under study                                    28                    75                  90                    60                   46
DSAC I, II, III dams with completed studies                           2                    5                   5                     5                    9
Note 1: Data is collected from actual floods occurring throughout the year, and data becomes available in March following the year of interest. The USACE-
CW makes no predictions or targets year-to-year; data is used for trend analysis only.



                                                                                                                                                              Management’s Discussion and Analysis
                                                      Operation and maintenance measures for Flood Risk Management

                                                      The following three measures comprise the FY 2012-2013 FRM Priority Goal:

                                                      Number of dam safety classification ratings reduced. The number of dam
                                                      safety risk classification improvements on USACE operated dams resulting from
                                                      risk assessment analysis and safety improvements implemented.

                                                      Levee risk screenings conducted. The number of portfolio risk screening and
                                                      periodic inspections conducted on levee systems with the USACE-CW Levee
                                                                                                                                                                                                     Civil Works 11




                                                      Safety Program.

                                                      High-consequence project condition rating improvement. The number of
                                                      USACE-CW projects with an improved overall project condition rating resulting
                                                      from maintenance work completed.
12 FY 2013 United States Army Corps of Engineers Annual Financial Report


Performance Results—Operation and Maintenance                       Waurika Dam, DSAC III to IV, based on a
(O&M)                                                                 Periodic Assessment (PA)
                                                                    West Bank Levee at Rankin Dam, DSAC II to IV,
The FY 2013 O&M funding provided for the operation
                                                                      based on a PA
and maintenance of 396 flood risk management projects
including the Mississippi River and Tributaries System,             Hartford Levee, DSAC II to IV, based on a PA
in order to maintain basic operations for flood risk                Pomme de Terre Dam, DSAC III to IV, based on
management purposes without compromising project                      a PA
purpose and function. Funding was used to fund non-                 Council Grove Dam, DSAC III to IV, based on
routine maintenance activities on eight projects with high            a PA
consequences and failed or inadequate project condition             J Percy Priest Dam, DSAC II to III, based on a PA
ratings. Additionally, funding was used to continue the             Francis E. Walter Dam, DSAC III to IV, based on
implementation of the USACE-CW Levee Safety Initiative,               a PA
including periodic inspection and screen level risk
assessments of the over 14,000 miles of federally authorized
and non-federal levee systems. These periodic inspections           Glover Wilkins Lock and Dam, DSAC II to III,
and risk screenings will greatly improve our understanding            based on a screening for portfolio risk analysis
of the conditions and risks associated with the nation’s              (SPRA) re-evaluation
levee systems, and will improve our ability to inform the           Mt St Helens SRS, DSAC III to IV, based on an
public of the risks and recommend the appropriate risk                SPRA re-evaluation
management actions to address the risks.                            Rapide Croche Dam, DSAC II to IV, based on an
                                                                      SPRA re-evaluation
Priority Goal
                                                                    Upper Appleton Dam, DSAC II to IV, based on
Reduce the nation’s risk of flooding that places individuals          an SPRA re-evaluation
at risk of injury or loss of life and damages property.             Wilbur Mills Dam, DSAC III to IV, based on an
By September 30, 2013, reduce at least 10 dam safety                  SPRA re-evaluation
classification ratings, conduct at least 600 levee risk             Norrell Lock and Dam, DSAC III to IV, based on
screenings, and improve the condition rating for at least 13          an SPRA re-evaluation
high-consequence projects, which have either failed or have
                                                                    Dexter Dam, DSAC II to III, based on an SPRA
inadequate condition ratings.
                                                                      re-evaluation
Priority Goal Results                                               Foster Dam, DSAC II to III, based on an SPRA
                                                                      re-evaluation
The measures for the Flood Risk Management Priority Goal
                                                                    Clarence Cannon Re-Regulation Dam, DSAC II
are shown in bold in the Table 2.
                                                                      to IV, based on an SPRA re-evaluation
As of September 30, 2013, 400 levee safety periodic                 David D Terry Lock and Dam, DSAC III to IV,
inspections and levee risk screenings have been completed             based on an SPRA re-evaluation
and 23 dams had DSAC improvements in FY 2013                        Aquilla Dam, DSAC III to IV, based on an SPRA
based on the further evaluation of project risks and/or               re-evaluation
remedial measures:                                                  Joe Hardin Lock and Dam, DSAC III to IV, based
                                                                      on an SPRA re-evaluation
     Brookville Dam, DSAC II to IV, based on an Issue
       Evaluation Study (IES)                                       Ozark Lock and Dam, DSAC III to IV, based on
                                                                      an SPRA re-evaluation
     Green River Dam, DSAC II to III, based on
       an IES                                                  Additionally, maintenance work to improve the condition
     Nolin Dam, DSAC II to III, based on an IES              rating on the 13 high consequence projects has been
     Hammond Dam, DSAC II to III, based on an IES            completed on seven projects in FY 2013 and the
     J. Edward Roush Dam, DSAC II to III, based on           maintenance work on the remaining projects is on schedule
       an IES                                                  for contract award and/or construction completion
                                                               in FY 2014.
TABLE 2. Operation and Maintenance—Flood Risk Management

                                                                                                                      FY 2013
                                                             FY 2010           FY 2011        FY 2012          Target         Actual
Expenditures in millions of dollars                               $887              $855          $1,087            $588           $761
Number of dam safety classification
ratings reduced                                                                                        7                5             25
Levee risk screenings conducted                                       Note 1                         326              274            400
High-consequence projects improved
condition rating                                                                                        5               8               7
Note 1: FY 2012 is the first year of reporting on this measure.


                                                       EMERGENCY MANAGEMENT
                                                       This business line strives to manage the risks associated with all types of hazards
                                                       and increase civil works emergency management responsiveness to disasters in
                                                       support of federal, state, and local emergency management efforts. Disaster
                                                       preparedness and response capabilities are not limited to flood and coastal storm
                                                       events, but also contribute to a broad range of natural disasters and national
                                                       emergencies. Emergency readiness contributes to national security

                                                       Objectives:

                                                              Attain and maintain a high, consistent state of preparedness.

                                                              Provide a rapid, effective, and efficient all-hazard response.

                                                              Ensure effective and efficient long-term recovery operations.

                                                       Funding History: The first row of Table 3 indicates funding for emergency
                                                       preparedness and response and recovery operations.




                                                                                                                                             Management’s Discussion and Analysis
                                                                                                                                                                                    Civil Works 13




Debris from Hurricane Sandy loaded onto barges. (Photo courtesy of USACE-CW)
14 FY 2013 United States Army Corps of Engineers Annual Financial Report




The U.S. Army Corps of Engineers Savannah District test the spillway gates at the J. Strom Thurmond Dam to ensure the gates can be activated properly in the
event of an emergency. (USACE-CW photo by Billy Birdwell)

Performance Indicators: The three primary measures listed                       widespread power outages, and extensive damage to
in Table 3 assist in determining progress toward meeting the                    infrastructure, businesses and private residences. Within
USACE-CW emergency management objectives. Indicators                            the U.S., damages were experienced as far south as Florida
are explained below.                                                            and as far north as New England. Particularly hard hit
                                                                                were areas in the greater New York City metropolitan
Planning and Response Team readiness. The USACE                                 area, including Long Island, New York, New Jersey, and
established designated Planning and Response Teams                              Connecticut shoreline. The Hurricane Sandy efforts
(PRTs) organized to provide rapid emergency response                            overshadowed every other event in the year, but there
and recovery within specific mission areas. This measure                        were many others, including massive spring flooding in
is calculated as a percentage of time during the fiscal year                    Mississippi and Ohio River Valleys, and smaller flood
during which PRTs are fully staffed, trained, and ready                         events in California, the Pacific Northwest, New Mexico,
to deploy.                                                                      Colorado, and the Susquehanna River Valley.
Project inspection performance. The USACE performs                              Although Hurricane Sandy was the biggest and most
inspections of active non-federal flood control projects                        visible disaster of the year, the USACE responded to many
operated and maintained by public sponsors to determine                         other disasters, large and small. Drought conditions on
their ability to perform as designed and intended during                        the Mississippi River resulted in low water which required
a future flood event, and to determine eligibility for                          blasting operations near Thebes, IL, to deepen the channel.
federal assistance in the event of damage. This measure is                      Numerous wildfires in the west resulted in Advance
determined by the percentage of scheduled inspections                           Measures technical assistance being provided in Colorado,
completed during the fiscal year.                                               New Mexico, and Idaho. Flash flooding in Colorado also
Damaged project restoration. The USACE repairs flood                            resulted in seven mission assignments ($3.7M) in support
control projects damaged by floods or storms under                              to FEMA. Spring flooding in the Mississippi and Ohio
authority of P.L. 84-99. This measure is the percentage of                      River Valleys damaged over three dozen levees that are
projects damaged during a fiscal year and repaired prior to                     being repaired under PL 84-99 authority, in Mississippi,
the next flood season.                                                          Tennessee, Missouri, Illinois, Indiana, Kentucky, and Iowa,
                                                                                and flooding in New York resulted in additional levee
Performance Results                                                             rehabilitation work. Flooding in Galena, Alaska, resulted
                                                                                in eight FEMA mission assignments totaling $1.26 million.
Hurricane Sandy was a catastrophic tropical storm that                          The USACE issued approximately 5 million sandbags to
struck the North Atlantic coastline in late October 2012,                       local entities during the year to support flood-fighting
resulting in loss of life, severe damage to the coastline,                      efforts across the nation.
TABLE 3. Emergency Management Indicators

                                                                                                                                 FY 2013
                                                          FY 20101             FY 20111             FY 20121             Target1         Actual1
Expenditures in millions of dollars                           $1,515               $1,857               $1,165               $1,009           $762
Planning and Response Team readiness                            87%                  96%                  96%                  95%           100%
Project inspection performance                                  77%                  70%                  86%                  80%             83%
Damaged project restoration                                     61%                  27%                  68%                  47%             47%
Note 1: Additional funding was provided in supplemental appropriations to repair projects damaged by coastal storm and flooding

Strategic Goal 2: Help Facilitate Commercial Navigation in an Environmentally- and Economically-
Sustainable Fashion

NAVIGATION                                                                      Performance Results - Construction and Investigations

Objectives:                                                                     Investigations funds of $18 million were used at various
                                                                                locations throughout the nation to continue the study and
      Invest in navigation infrastructure that is fully                       design of navigation improvements, exemplified by (1) lock
        capable of supporting maritime requirements                             replacements on the Mississippi and Ohio Rivers, Gulf
        in environmentally-sustainable ways when                                Intracoastal Waterway, and Illinois Waterway; (2) deepening
        economically justified.                                                 of key ports, e.g., Charleston, Savannah, Boston,
                                                                                Jacksonville, Port Everglades, Freeport, and Brownsville; and,
      Improve the efficiency and effectiveness of
                                                                                (3) increasing economic benefits, reducing transportation
        existing USACE-CW water resource projects by
                                                                                costs, and improving the overall reliability of the navigation
        maintaining justified levels of service to commercial
                                                                                infrastructure. Chief of Engineers’ reports were completed
        traffic of high-use infrastructure, e.g., waterways,
                                                                                for the Freeport Harbor (Texas) project to deepen the main
        harbors, and channels.
                                                                                channels from 45 to 55 feet.
      Address the O&M backlog by funding high-priority
                                                                                Construction funds of $308 million for inland waterways
        O&M projects.
                                                                                were used to (1) complete major rehabilitation of Lock
Funding History: The first rows of Table 4 and Table 5                          and Dam (L&D) 27, Mississippi River, and continue
indicate Navigation funding.                                                    major rehabilitation of Lockport L&D, Illinois Waterway;
                                                                                (2) continue construction of replacement locks and dams,
Performance Indicators: To measure progress in meeting                          such as Olmsted L&D, Ohio River, L&Ds 2, 3, and 4,
Goal 2 objectives, the USACE uses performance indicators.                       Monongahela River, and Kentucky L&D, Tennessee River;
These indicators relate to activities for inland and intracoastal               and (3) continue construction of training dikes along the
waterways, coastal ports, and harbors as well as to the                         Mississippi River to improve navigation reliability and reduce
efficiency of the overall navigation system. The most                           O&M costs. Major rehabilitation of Emsworth L&D, Ohio

                                                                                                                                                     Management’s Discussion and Analysis
representative indicators are described below and their                         River, and Chickamauga Lock, Tennessee River, continued,
measures are shown in Table 4 and Table 5.                                      using previously appropriated Construction, Inland
                                                                                Waterways Trust Fund (IWTF), and ARRA funds.
Construction measures for the navigation system
                                                                                Construction funds of $191 million for coastal navigation
High-return investments. The percentage of funding to                           projects were used for: (1) major channel deepening
rehabilitate, construct, or expand projects that are allocated                  improvement projects, such as New York and New Jersey
to high-return investments. High-return investment projects                     Harbor, Delaware River Main Channel (Delaware, New
are those with a benefit-to-cost ratio (BCR) of 3.0 or greater.                 York, Pennsylvania), and Wilmington Harbor, North
Average annual benefits realized by construction projects                       Carolina; (2) construction of dredged material and beneficial
                                                                                                                                                                                            Civil Works 15




completed in current fiscal year. The total average annual                      use placement sites, including: Jacksonville Harbor and
benefits (present value) realized by completed construction                     Tampa Harbor (Florida), Savannah Harbor (Georgia), and
projects. This measure assesses the effectiveness of the                        Green Bay Harbor (Wisconsin); (3) mitigation of shoreline
construction program in realizing transportation savings.                       damages caused by navigation projects; and (4) study and
                                                                                design for deepening and widening of additional deep draft
16 FY 2013 United States Army Corps of Engineers Annual Financial Report




As part of Louisville Mayor Fischer’s Hike, Bike and Paddle event, more than 200 kayakers, canoeists and other boaters paddled their way through the McAlpine
Locks and Dam on a 4.5-mile journey from the Louisville waterfront to New Albany, IN. (Photo by David Seng)

                                                     navigation channels, such as Baltimore Harbor & Channels (Maryland
                                                     and Virginia), Jacksonville Harbor (Florida), Mobile Harbor (Alabama),
                                                     San Francisco Bay to Stockton (California), and Savannah Harbor
                                                     Expansion (Georgia).

TABLE 4. Navigation Construction Performance Indicators
                                                                                                                                       FY 2013
                                                                               FY 2010         FY 2011         FY 2012            Target     Actual
                  Expenditures in millions of dollars                              $753            $654            $533              $428       $517
                  Percentage of funds to high-return
Inland Waterways investments (BCR > 3)                                               76%             94%             97%             75%            22%1
                  Average annual benefits realized by
Coastal Ports and construction projects completed in current
Harbors           fiscal year in millions of dollars                               $44.7             $3.6           $23.8             $40          $43.72
Note 1: Cost estimate for the ongoing Olmsted Locks and Dam project increased significantly, thereby lowering the BCR below 3.0
Note 2: Completion of Wilmington Harbor (NC), Akutan Harbor (AK), and Unalaska Harbor (AK)

                                                     Operation and maintenance measures for inland and intracoastal waterways

                                                     Ton-miles. The sum total of movement of cargo on a specific waterway; this
                                                     measure is a roll-up of tons of cargo transported by a vessel multiplied by the
                                                     miles that vessel traveled on the particular inland or intracoastal waterway.
                                                     Although there is no specific USACE-CW target, this indicator is used for
                                                     trend analysis.

                                                     Segment availability. The number of hours, in excess of 24, that mechanical-
                                                     driven failure or shoaling results in the closure of all, or part of, a high- or
                                                     moderate-commercial-use segment. The measure includes only failures on the
                                                     main chamber of a lock (rather than an auxiliary chamber) and on shoaling due
                                                     to inadequate dredging (rather than low water levels from droughts or channels
                                                     closed due to floods). It also tracks closures of more than one week. The two
                                                     measures that were developed for the navigation priority goal—preventable lock
                                                     closures over one day, and over seven days—are proxies for this measure.
Operation and maintenance measures for coastal ports                             projects did not receive sufficient funds to maintain
and harbors, including major repairs                                             constructed project dimensions. O&M funding was used
                                                                                 to dredge the most critical shoals. Most low commercial-use
Tons of cargo. Total sum of cargo in tons moved in and                           harbors and channels were not dredged and continue to
out of coastal ports and harbor systems. This measure                            shoal, further limiting vessel drafts.
indicates system use; data collected are for the purpose
of trend analysis. No specific target is generated by                            Priority Goal
the USACE.
                                                                                 Help facilitate commercial navigation by providing safe,
The USACE is in the process of developing a system to                            reliable, highly cost-effective, and environmentally-
measure and collect data on channel availability on high-use                     sustainable waterborne transportation systems. Through
projects, which would represent the percentage of time that                      September 30, 2013, limit annual lock closures due to
high commercial traffic navigation channels are available to                     mechanical failures of main lock chambers on high and
                                                                                 moderate use waterways to no more than 46 for closures
commercial users. There are a total of 59 high-use projects,
                                                                                 lasting more than one day, and no more than 26 for
defined as those that pass 10 million or more tons of cargo
                                                                                 closures lasting more than one week.
per year. Data on these projects will be displayed in this
report once the system is fully deployed.                                        Priority Goal Results
Performance Results—Operation and Maintenance                                    The measures for the Navigation Priority Goal are shown in
                                                                                 bold in the table below.
The O&M and the Mississippi River and Tributaries
O&M appropriations of $74 million were used to fund                              The targets are based on the median annual number of
(1) continued operation and maintenance of 220 locks at                          closures over the previous five years. The instances and
177 locations; and, (2) maintenance dredging of critical                         hours of scheduled and unscheduled lock closures due
and high commercial-use reaches of the 12,000 miles of                           to mechanical failures have generally been increasing
inland and intracoastal waterways. Not all waterways were                        since FY 2000. The USACE anticipates lock closures
maintained at authorized dimensions. Many locks and                              will continue to increase over the next several years and
dams received only the most critically-needed maintenance;                       it further anticipates that the five-year median target
some locks, dams, and waterways were only maintained in                          will increase accordingly. The USACE is prioritizing its
caretaker status. Funding enabled maintenance dredging                           annual funding and continues to complete repairs and
of high-use, commercially-important coastal ports, harbors,                      maintenance work on locks with Recovery Act investments,
and channels; critical harbors of refuge; and subsistence                        which will help arrest the increase in lock closures.
harbors. Many high- and moderate-commercial-use

TABLE 5. Navigation, Operations and Maintenance Activities Performance Indicators

                                                                                                                               FY 2013
                                                                                FY 2010         FY 2011        FY 2012    Target     Actual


                                                                                                                                                Management’s Discussion and Analysis
                                   Expenditures in millions of dollars            $2,281          $1,878         $1,662    $1,290      $1,715
                                   Segment availability—closures
                                   over 24 hours in thousands of
                                   hours                                              19.6            23.1         16.5    Note 1         9.9
                                   Ton-miles in billions of ton—miles
Inland Waterways
                                   by fiscal year                                      261             242         267     Note 1      Note 2
                                   Preventable lock closures over
                                   24 hours                                             61               50         39         46         28
                                   Preventable lock closures over
                                   7 days                                               37              26           19       26          16
                                                                                                                                                                                       Civil Works 17




Coastal Ports and Harbors          Tons of cargo in billions of tons                 1.856           1.914        1.881    Note 1      Note 2

Note 1: The USACE-CW does not set targets for these measures.
Note 2: Waterborne Commerce Statistics Center data for FY 2013 will not be available until late spring 2014.
18 FY 2013 United States Army Corps of Engineers Annual Financial Report


                                                                           various projects on the Columbia River system and the
                                                                           Missouri River continues to be a USACE-CW priority.
                                                                           Other projects receiving construction funding include
                                                                           restoration of Hamilton Airfield Wetlands, California;
                                                                           Napa Salt Marsh, California; and Upper Mississippi River
                                                                           Restoration. Thirteen ecosystem restoration projects were
                                                                           physically completed in FY 2013.

                                                                           Completion of 15 other projects restored 3,400 acres.
                                                                           This included 220 acres along the Missouri river, providing
                                                                           restored habitat for the endangered least tern and piping
Federally endangered California least tern. (Photo courtesy of USACE-CW)   plover as well as pallid sturgeon and other native fish.
                                                                           The specifically authorized project Sand Creek, Wahoo,
Strategic Goal 3: Restore Degraded Aquatic Ecosystems
                                                                           Nebraska completed providing 953 acres. Three projects
and Prevent Future Environmental Losses
                                                                           were completed in the Great Lakes region, and the Ventura
AQUATIC ECOSYSTEM RESTORATION                                              Marsh, Iowa project restored almost 900 acres. The Great
                                                                           Lakes Mississippi River Inter-basin Study was among
Objective: Restore the structure, function, and process                    several studies funded. One Chief of Engineer’s report
of significantly degraded ecosystems to allow them to                      was signed in FY 2013 – Neuse River Basin Ecosystem
revert to a more natural condition. Invest in restoration                  Restoration Project, North Carolina.
projects or features that positively contribute to the nation’s
environmental resources in a cost-effective manner.                        Priority Goal

Funding History: The first row of Table 6 displays the                     By September 30, 2013, consistent with the federal
funding for aquatic ecosystem restoration.                                 restoration strategies developed for each unique ecosystem,
                                                                           the USACE-CW will show progress through completion
Performance Indicators: The USACE has established two                      of identified study, design, and construction activities that
indicators to assess progress in meeting this objective; data              will contribute to a long-term goal of improved ecological
are shown in Table 6.                                                      conditions in the Great Lakes Basin, the Everglades, and the
                                                                           Columbia River Basin.
Acres of habitat restored, created, improved, or protected
annually. The number of acres of habitat restored in                       Priority Goal Results
degraded ecosystems.
                                                                           This goal consisted of a total of 23 milestones, 12 of which
Number of projects or separate elements physically                         were scheduled in FY 2013. Twenty-two of the milestones
completed. This represents the actual number of projects                   were met by September 30, 2013. Significant progress was
or separate elements physically completed in the current                   made in identifying promising technologies for limiting
fiscal year.                                                               the exchange of invasive species between the Great Lakes
                                                                           and Mississippi River basins, and possible alternatives
Performance Results                                                        were identified for further analysis. In addition a contract
                                                                           was awarded for construction of the building to house
Funding was provided to continue efforts in the
                                                                           and protect from the elements the specialized electrical
several important ecosystems. This includes continued
                                                                           equipment that will generate the fish-deterring electrical
implementation of Everglades restoration efforts; work
                                                                           field barrier. In the Everglades, construction was completed
in the Great Lakes on the modifications to the Chicago
                                                                           and the Central Everglades Restoration Plan’s (CERP)
Sanitary and Ship Canal to prevent the transfer of
                                                                           Melaleuca Eradication and Other Exotic Plants, Rearing
invasive species between the Great Lakes and Mississippi
                                                                           Annex was turned over to the sponsor for operation. This
River basins; and continued work on restoration of
                                                                           facility will be used to raise biological predators that will
Poplar Island, Maryland, using dredged material from
                                                                           aid in the reduction of the population of invasive and
the Baltimore channel. Funding for studies on the
                                                                           exotic plants such as Melaleuca in the Everglades. In
Louisiana Coastal Area Program was reduced due to
                                                                           the Columbia River system, the completion of the John
available carryover and significant changes in the State’s
                                                                           Day North Shore Fish Ladder Improvements was a key
priorities. The multimillion dollar effort directed towards
                                                                           milestone that was met. The missed milestone was the
meeting the requirements of biological opinions affecting
                                                                           completion of the Merritt Pump due to the need to adjust
                                                      the design to accommodate the sponsor’s system and to resolve problems
                                                      identified during testing. The pump is one element of the CERP Picayune
                                                      Strand project. It will be the first of the three main contracts to be completed
                                                      for this project. When all three phases are completed project sheet flow will
                                                      be restored to 55,000 acres of previously drained wetlands and will provide
                                                      connectivity to adjoining federal and state managed lands.

TABLE 6. Aquatic Ecosystem Restoration Indicators

                                                                                                                                   FY 2013
                                                            FY 2010              FY 2011              FY 2012               Target         Actual
Expenditures in millions of dollars                              $531                 $496                 $581                  $419           $479
Acres of habitat restored, created, improved,
or protected (annual)                                              4,540              12,200                 1,221                3,260                3,400
Number of projects/separable elements
physically completing                                                 17                   28                   15                   13                    15

                                                      REGULATORY
                                                      Objective: To execute the USACE-CW regulatory mission in a manner that
                                                      protects the aquatic environment while allowing reasonable development
                                                      through fair and balanced decision making.
                                                      Funding History: The first row of Table 7 displays the funding for the
                                                      Regulatory business line.
                                                      Performance Indicators: Table 7 displays measures that are performance
                                                      indicators in determining progress in meeting this objective.
                                                      General permit decisions. The percentage of general permit application
                                                      decisions made within 60 days.
                                                      Individual permits. The percentage of general individual permit application
                                                      decisions made within 120 days. This standard does not include individual
                                                      permits with formal Endangered Species Act (ESA) consultations.




                                                                                                                                                                   Management’s Discussion and Analysis
                                                                                                                                                                                                          Civil Works 19




Progress continues at Poplar Island where dredged material from the Baltimore Harbor and other channels is being used to restore the island that was recently on
the verge of disappearing. (Photo by U.S. Army Corps of Engineers, Baltimore District)
20 FY 2013 United States Army Corps of Engineers Annual Financial Report


                                             Performance Results

                                             In FY 2013, the USACE-CW Regulatory business line exceeded its performance
                                             targets. Regulatory funds were used to maintain similar levels of staffing across
                                             the nation. This business line continues to seek out advancements that can be
                                             made by leveraging the best in available technology and science. Its goal is to
                                             place the necessary tools and technology in the hands of the field staff so that
                                             they may continue to provide exceptional service to stakeholders while meeting
                                             the mission—protecting the nation’s aquatic environment.

TABLE 7. Regulatory Indicators

                                                                                                          FY 2013
                                                 FY 2010         FY 2011         FY 2012          Target            Actual
Expenditures in millions of dollars                   $209            $196            $191             $183              $184
Percentage of general permit application
decisions made within 60 days                          92%              91%             89%             75%              89%
Percentage of standard permits and letter
of permission permit decisions made within
120 days                                               67%              71%             69%             50%              69%


                                             ENVIRONMENTAL REMEDIATION (FORMERLY UTILIZED
                                             SITES REMEDIAL ACTION PROGRAM)
                                             Objectives:

                                                  Minimize risk to human health and the environment
                                                  Maximize the cubic yardage of contaminated material disposed in a safe
                                                    and legal disposal facility
                                                  Return the maximum number of affected individual properties to
                                                    beneficial use

                                             Funding History: The first row of Table 8 displays funding for environmental
                                             remediation.

                                             Performance Indicators: The measures listed in Table 8 serve as indicators to
                                             help USACE personnel determine progress in meeting this objective.

                                             Cubic yardage of contaminated material disposed. Target-soil amounts are
                                             dependent on previous year funding and scheduled activities.

                                             Individual properties returned to beneficial use. The number of properties
                                             released for general use following remediation.

                                             Performance Results

                                             This business line uses the Monte Carlo method for cost and schedule
                                             risk analysis, a methodology that continues to improve the USACE-CW
                                             performance and ability to repair past environmental damage. The Monte Carlo
                                             method uses a series of random samples taken from a range of variables that can
                                             affect cost and schedule, in order to create a cost and schedule forecast with a
                                             definable level of certainty (or uncertainty). In FY 2013, FUSRAP met all of its
                                             performance targets. Funds were used to continue radiological remedial
activities at the Maywood site in New Jersey; the Shallow                         A site-wide record of decision was signed for the DuPont
Land Disposal Area in Pennsylvania; properties in the                             – Chambers Works site in New Jersey. A soil remedial
vicinity of the St. Louis Airport in Missouri; the Iowa                           investigation was completed at the Colonie site in New
Army Ammunition Plant; the Hazelwood Interim Storage/                             York. Approximately 55,000 cubic yards of contaminated
Latty Avenue; the St. Louis Downtown Sites in St. Louis,                          material was removed. Seventeen (138 cumulative)
Missouri; and W.R. Grace at Curtis Bay site in Baltimore,                         properties were returned to beneficial use. Remedial
Maryland. The remedial action at the Linde site in                                investigation activities continued at all other FUSRAP sites.
Tonawanda, New York was completed.

TABLE 8. Remedial Action Indicators

                                                                                                                                         FY 2013
                                                                                    FY 2010         FY 2011         FY 2012         Target     Actual
Expenditures in millions of dollars                                                     $166            $181            $137           $100        $93
Contaminated material removed in thousand cubic yards                                    212             129              97             52         55
Individual properties returned to beneficial use1                                         31              18              11             17         17

Note 1: In prior year publications this measure was reported as a cumulative figure; in FY 2013 the measure has been reformatted to show only actual
annual results.


ENVIRONMENTAL STEWARDSHIP
Objectives:

      Protect natural and cultural resources through                            Healthy and sustainable lands and waters. The
        maintenance of project boundaries and protection                          number of USACE-CW fee-owned acres classified in
        of encroachments, protection of significant                               a sustainable condition divided by the total number of
        cultural sites and control of threats from                                USACE-CW fee-owned acres where land conditions
        invasive species.                                                         assessments have been completed. Sustainable is defined
                                                                                  as being healthy and viable, not significantly impacted by
      Comprehensively plan for natural resource                                 any unmanageable factors, and not requiring intensive
        uses compatible with project purposes and                                 management to maintain health. The acreage also meets
        resource capabilities through proper master plan                          operational goals and objectives established in applicable
        compliance with current regulations and proper                            management documents.
        evaluation of existing and proposed outgrants use
        of USACE-CW lands and waters.                                             Master plan compliance. The master plan fosters an
                                                                                  efficient and cost-effective project for natural resources,
      Sustain and restore ecological diversity through                          cultural resources, and recreational management programs.

                                                                                                                                                         Management’s Discussion and Analysis
        protection of environmentally sensitive areas,                            Master Plan compliance is defined as a plan with resource
        proper management of special status species                               objectives and classifications as per current regulations.
        and their habitats and protection of ecological                           This measure demonstrates the USACE-CW commitment
        functions that contribute to national programs                            to fully integrate environmental stewardship in the
        of interest.                                                              management of operating projects and allows for making
Funding History: The first row of Table 9 reflects funding                        appropriate land use decisions in the face of increasing
for environmental stewardship                                                     demand for use of USACE-CW lands. The measure is
                                                                                  expressed as a percentage derived by dividing the number of
Performance Indicators: To measure success in attaining                           required master plans in compliance with regulation by the
                                                                                                                                                                                                Civil Works 21




the above objectives, the USACE developed a number of                             total number of required master plans.
performance indicators; data for two of the main indicators
may be found in Table 9.
22 FY 2013 United States Army Corps of Engineers Annual Financial Report




Touring the project site at Indian Creek, a tributary of the Cobbs Creek watershed. The project is designed to reduce combined sewage overflow and improve
habitat. (Photo by USACE Philadelphia District & Marine Design Center)

Performance Results                                                                across USACE-CW projects. Funding will continue to be
                                                                                   placed on the highest priority and most significant resources
Constrained resources continue to permit the                                       needs to sustain priority habitat while other critical habitat
USACE to meet only the highest priorities and most                                 conditions may become further degraded.
immediate responsibilities in land, water and cultural
resources protections.                                                             The number of master plans updated in accordance with
                                                                                   current regulations, remain fairly low, which, in turn,
Under the healthy and sustainable performance measure,                             hampers the ability to adequately plan for, and adjust
the basic protection of land and water resources is expected                       to, increasing pressures by rising population growth and
to continue to remain relatively flat. Threats from invasive                       land use demands. The performance trend is expected
species, exotic pests, development, and population growth,                         to slightly increase in future years as additional priority
combined with the increase in request for use of USACE-                            has been placed on master plans in the USACE-CW
CW lands, will continue a path of declining resource health                        budget development.

TABLE 9. Environmental Stewardship Indicators

                                                                                                                                    FY 2013
                                                                                      FY 2010    FY 2011       FY 2012         Target     Actual1
Expenditures in millions of dollars                                                       $212       $191          $173            $91       $162
Healthy and sustainable lands and waters                                                  45%        65%           66%            66%         68%
Master plan compliance                                                                    28%        32%           32%            32%         33%

Note 1: FY 2013 figures are estimates; actual results will be available in December 2013.

Strategic Goal 4: Implement Effective, Reliable, and Adaptive Life-Cycle Performance Management of Infrastructure

HYDROPOWER
Objective: To improve the efficiency and effectiveness                             Funding History: The first row of Table 10 indicates
of existing USACE-CW water resource projects. The                                  capital improvements and O&M expenditures for the
USACE seeks to maintain peak availability and reliability                          Hydropower business line over the past three-year period.
of hydroelectric power-generation at multipurpose
reservoir projects.                                                                Performance Indicators: Table 10 displays representative
                                                                                   performance indicator results and targets for the year.
Percentage of time available during periods of peak                       The length of time hydropower generating units were
demand. The amount of time during designated peak                         actually available to produce power during peak demand
demand periods that hydroelectric generating units are                    periods decreased, when compared to the previous year.
available to the PMA’s interconnected system.                             This decrease resulted in part from scheduled equipment
                                                                          outages for capital investments and equipment outages
Percentage of forced outages. The percentage of time                      resulting from aging equipment. The industry standard for
generating units are in an unscheduled or unplanned outage                peak availability is 95%. Table 10 shows FY 2013 business
status. Lower the forced outage rates increase the reliablity             line performance for peak availability to be approximately
and reduce the cost of the electrical power that is provided              9.25 percentage points below the industry standard.
to the customer.
                                                                          Priority Goal
Sub-Agreements signed. Under their existing master
agreements, the major subordinate commands sign sub-                      Improve the current operating performance and asset
agreements with their regional Department of Energy PMA                   reliability of hydropower plants in support of Executive
and preference customers to provide customer funding                      Order 13514. By September 30, 2013, the USACE, the
for specific maintenance, rehabilitation, or modernization                Department of Energy Power Marketing Administrations
activities at USACE-CW hydroelectric facilities.                          (PMAs), and PMA preference customers will implement
                                                                          sub-agreements that will provide funds to accomplish major
Performance Results                                                       maintenance and/or major rehabilitation on existing power
                                                                          plants.
Appropriated funds were used to accomplish critical
routine operation and maintenance and some non-routine                    Priority Goal Results
maintenance at 54 of the Corps 75 hydroelectric facilities,
along with some capital work, such as rehabilitation of the               The measure for the hydropower priority goal is shown
Garrison Power Plant Switchyard and judicial requirements.                in bold in the table below. The USACE has achieved its
Additional capital work and other non-routine maintenance                 goal of implementing sub-agreements to provide funds to
work was accomplished through the implementation                          accomplish major maintenance or major rehabilitation at
of agreements and associated sub-agreements with                          existing hydropower plants. All USACE divisions with
the regional Department of Energy PMAs and their                          hydropower have either implemented sub-agreements
preference customers.                                                     during FY 2013 or are in the process of negotiating sub-
                                                                          agreements with their regional Department of Energy
                                                                          PMAs and preference customers.

TABLE 10. Hydropower Indicators
                                                                                                                FY 2013
                                                        FY 2010           FY 2011         FY 2012        Target           Actual
Expenditures in millions of dollars                          $352              $349            $395           $167             $280
Percentage of time available during periods
of peak demand                                               86.82%         89.33%          88.18%             95%          85.75%

                                                                                                                                       Management’s Discussion and Analysis
Percentage of time units are out of service
due to unplanned outages                                     4.29%            4.4%           4.22%              2%           5.85%
Number of sub-agreements signed                                  Note 1                          13          Note 2              26

Note 1: New measure beginning in FY 2012.
Note 2: The USACE-CW does not set targets for this measure


RECREATION
                                                                                                                                                                              Civil Works 23




Objectives:

      Provide justified outdoor recreation opportunities                     Offer outdoor recreation opportunities to meet
        in an effective and efficient manner at all USACE-                       the needs of present and future generations of
        CW water resources projects.                                             Americans.
24 FY 2013 United States Army Corps of Engineers Annual Financial Report




A view of Pine Flat Dam near Fresno, CA. Pine Flat Dam reduces flood risk to Fresno County and stores water used for water supply and hydroelectric power.
(U.S. Army photo by John Prettyman/Released)


       Provide a safe and healthful outdoor recreation                             Performance Results
         environment for USACE-CW customers.
                                                                                     The Army is committed to ensuring that all recreation
Funding History: The first row of Table 11 shows the                                 areas provide visitors a level of service that will enable a
funding for the Recreation business line.                                            secure, safe, and quality experience. Each project maintains
                                                                                     multiple parks and multiple areas (camping, picnicking,
Performance Indicators: The measures displayed in                                    boat launch) within each recreation area. The USACE
Table 11 describe the value the Recreation business line                             continued a systematic, national review of more than 2,000
provides to the Nation. These indicators are explained                               recreation areas to determine where changes could be made
below.                                                                               in management and operation of facilities to respond to
                                                                                     changing economic, financial, and operational demands.
Total national economic development (NED) benefits.                                  Changes implemented included reduction in services and
The NED1 benefits are estimated using the unit-day value                             maintenance levels, hours of operations, and releasing
method, which was originally developed by the Water                                  recreation areas from USACE management and control,
Resources Council.                                                                   either by assignment to an outside interest or by closure.
                                                                                     Available funding was directed toward providing necessary
Number of visitors. The total number of visitors to                                  maintenance of grounds and sanitary facilities, protection
USACE-managed parks, expressed in millions of people.                                of project assets and public property, security and visitor
                                                                                     safety, and managing visitation.

TABLE 11. Recreation Indicators

                                                                                                                                               FY 2013
                                                                                        FY 2010         FY 2011          FY 2012          Target     Actual
Expenditures in millions of dollars                                                         $557            $422            $3151            $239       $308
Total NED benefits in millions of dollars                                                 $1,610          $1,477          $1,5561          $1,542      $1,567
Number of visitors in millions of visits                                                     135             126             1321             130         132

Note 1: Updated financial information was made available in FY 2013. Values are different from FY 2012 reported data.



1  NED benefits arising from recreation experiences are measured in terms of willingness to pay for each increment of supply or type of recreation opportunity.
The unit-day-value method relies on expert or informed opinion and judgment to approximate the average user’s willingness to pay for federal or federally-assisted
recreation resources. The unit-day-value is estimated at the park (recreation area) level by evaluating each park according to a set of published criteria. By applying
a carefully thought-out and adjusted unit-day-value to estimated use, an approximation can be obtained for use as an estimate of project recreation benefit
(i.e., NED benefits = unit-day value X recreation use in visitor days).
WATER STORAGE FOR WATER SUPPLY
Objective: To provide municipal and industrial water           Performance Results
supply storage in a cost-efficient and an environmentally
and socially responsible manner in partnership with            One major initiative for FY 2013 was to provide $1 million
nonfederal water management plans, consistent with law         as the second year funding for a three year, $3 million
and policy.                                                    study of the six Missouri main stem reservoirs to evaluate
                                                               water storage reallocation for water supply needs. This is
Funding History: Funding for water supply storage is           the first reallocation study included in the water storage for
provided in the first row of Table 12.                         water supply budget since FY 2006. Otherwise the current
                                                               funding level provides only the minimum amount necessary
Performance Indicators: To assist in gauging progress,         to continue the water storage for water supply function on
the USACE uses measures relating to the acre-feet of           a caretaker basis.
water stored and cost-recovery measures; these are shown
in Table 12.                                                   Development and quality control of the water supply
                                                               module of the Operations and Maintenance Business
Percentage of available acre-feet under contract. The          Information Link (OMBIL) continued during the year.
percentage of the acre-feet of water supply storage space      This module is providing (1) additional data to help our
under contract with state and local interests – for present
                                                               districts in the management of their water supply program,
and future use, compared to the acre feet of space available
                                                               (2) more tools for project oversight at the Headquarters
for water supply.
                                                               level, and (3) instant response to inquiries from Army
Percent of investment costs recovered versus the total         and congressional interests as well as from our state and
investment costs available for recovery. The USACE seeks       local sponsors. In addition, a portfolio of and a module
proportional reimbursement of capital costs for that portion   in OMBIL of our multiple purpose projects that contain
of the reservoir allocated for water supply. Cost available    irrigation storage space has been developed. Data was
for recovery is the total estimated capital cost of water      collected on authorizations, project and irrigation storage
supply allocations.                                            space, costs, other purposes that utilize the reservoir, flow
                                                               released for irrigation, number of irrigation agreements and
                                                               number of acres irrigated. We are beginning an effort to
                                                               validate all data before OMBIL migrates to the Enterprise
                                                               Data Warehouse.


TABLE 12. Water Storage for Water Supply
                                                                                                            FY 2013
                                                                 FY 2010     FY 2011     FY 2012       Target     Actual
Expenditures in millions of dollars                                    $6          $7          $6           $5        $10
Percentage of available acre-feet under contract                   94.8%       95.9%       94.9%          95%       95.6%
                                                                                                                                Management’s Discussion and Analysis
Percentage of capital cost recovered                               56.2%       56.0%       55.3%          56%       56.3%
                                                                                                                                                                       Civil Works 25
26 FY 2013 United States Army Corps of Engineers Annual Financial Report




A barge makes its way through the McKlellan-Kerr Arkansas River Navigation System lock and dam. (Photo courtesy of USACE-CW)



POSSIBLE FUTURE EFFECTS OF EXISTING CONDITIONS
Flood Risk Management
The Flood Risk Management program provides an                               periodic inspections of all federally authorized levee
important opportunity to reduce flood risk to lives and                     systems; continued a screening-level risk assessment of
property from inland and coastal flooding. In the last                      the levee systems that the Army operates and maintains,
25 years, these FRM projects have removed 2.7 million                       levees that were federally constructed or authorized and are
people from high-risk floodplains and avoided over                          locally operated, and nonfederal levees that are covered in
$477 billion in property damages. Systematic, coordinated                   the Rehabilitation and Inspection Program; and continued
operation of USACE-CW projects play a key role in                           levee data collection for the National Levee Database.
reducing the Nation’s flood risks, as was seen in the                       Completion of these assessments will provide an improved
Missouri, Mississippi, and Ohio River watersheds in 2011                    understanding of the conditions and risks associated with
when these watersheds were exposed to historic flood levels,                the Nation’s levee systems in order to recommend courses
the USACE-CW was able to significantly mitigate potential                   of action to make sure that these levee systems do not
damages to life and property. Current estimates for                         present unacceptable risks to the public, property and
damages prevented during the 2011 historic flooding are in                  the environment.
excess of $141 billion.
                                                                            Additionally, priority will continue to be given to
The USACE-CW implemented a four-year Levee Safety                           infrastructure maintenance and repair, reflecting the Army’s
Initiative in FY 2012 that will complete critical inspections               concern about the risks associated with aging dams and
and assessments of the levee systems within the USACE-                      levee systems.
CW levee safety program. Work in FY 2013 continued

The Marine Transportation System
The MTS is comprised of 1,000 harbors and channels;                         waterways, sea lanes, and intermodal connections. Today,
25,000 miles of inland and intracoastal waterways, and                      approximately 20% of the gross domestic product of the
coastal channels and harbors; and 241 lock chambers. The                    U.S. is generated by foreign trade, and approximately
national MTS goal is to provide a safe, secure, and globally-               95% of that trade is moved by water. The value of foreign
integrated network that, in harmony with the environment,                   tonnage is over $900 billion and it generates 13 million
ensures reliable movement of people and commerce along
jobs. Current forecasts predict that maritime trade will                        recent years, maintenance deferrals and delays in repairs
double in the next 20 years.                                                    and replacement of aging locks have driven up the number
                                                                                of unscheduled closures. For example, lock closures due to
The USACE-CW continues to be successful in providing                            mechanical breakdowns of main lock chambers on high-
significant navigation benefits to the nation; however, it                      and moderate-use waterways increased from 14,677 hours
faces considerable challenges in its efforts to maintain the                    per year in FY 2001 to more than 31,000 hours per year
reliability of the inland and intracoastal waterways and                        in FY 2011. Closures totaled 19,500 hours in FY 2013.
coastal navigation system. The system’s aging infrastructure                    Closures have a negative effect on the economy by
requires more repairs than the USACE-CW can accomplish                          imposing costs on shippers, carriers, and electric utilities.
given the historical level of navigation appropriations.                        An unscheduled 52-day closure at Greenup Locks and
Almost 60% of the USACE-CW locks have exceeded their                            Dams in Ohio, for example, cost shippers and carriers
50-year service life and require increased maintenance to                       over $53 million. Additionally, rehabilitations and
keep them functioning. Constrained funding, coupled with                        improvements to inland waterways are jeopardized by the
increased costs for dredging operations and construction,                       low balance in the IWTF due to the fact that half of the
are affecting the USACE-CW ability to properly maintain                         cost of improvements is derived from this fund.
its navigation infrastructure and channels. There has been
a significant increase in dredging costs in recent years,                       Funding for inland waterways projects remains constrained
which corresponds to the near doubling of fuel purchasing                       by the low balance in the IWTF and collected fuel-
costs and significant increases in steel and labor costs.                       tax revenues, which fund 50% of the costs for inland
Also, many of the channel-deepening projects completed                          projects on the fuel-taxed waterways. As the USACE-CW
over the past few years require additional maintenance                          continues to assess the condition of the nation’s dams, it
dredging. In addition, new environmental requirements                           must address human safety and navigation reliability issues.
and the construction of new, more distant dredged                               These dam safety projects are given funding priority, and
material placement sites have increased the costs of channel                    together with the constrained IWTF, necessitate deferring
dredging. Although other factors may limit or control                           or delaying many critical projects. Almost 60% of the
channel availability, the ability to maintain an acceptable                     USACE-CW locks have reached or exceeded their 50-year
channel width and depth through dredging operations has,                        service life.
by far, the greatest impact.
                                                                                Coastal Channels and Harbors. Existing high-volume
Inland Waterways. Eleven inland waterway locks are more                         channels and harbors had constructed depths for the center
than 100 years old, and 122 are over 50 years old. In                           half of the channel only one-third of the time in FY 2007




                                                                                                                                                                Management’s Discussion and Analysis
                                                                                                                                                                                                       Civil Works 27




The Springville (Scoby) Dam located in Springville, NY is used to evaluate an array of measures which will provide fish passage above the dam to the upstream
reaches of Cattaraugus Creek and its tributaries while at the same time prohibiting upstream migration of sea lampreys. (Photo by Andrew Kornacki, USACE
Buffalo District Public Affairs)
28 FY 2013 United States Army Corps of Engineers Annual Financial Report


and FY 2008. Loss of channel depths due to shoaling              be increased need on the Willamette. In the absence of
on high commercial use channels negatively affect the            a standard metric, the USACE continues to work with
economy by imposing costs on vessel operators that, in           other agencies and invest in research and development
turn, are reflected in the cost of imports and the price of      to objectively evaluate disparate ecosystem restoration
U.S. exports. On average, failure to maintain one foot of        projects and prioritize restoration needs. In FY 2013,
channel depth increases container shipping costs by about        the USACE-CW continued its research and development
6%. Additional economic costs will accrue by postponing          efforts to improve the use of structured decision-making
investment in deeper and wider channels that correlate with      tools, provide additional tools to facilitate evaluation of
projected future demand.                                         alternatives, and more effectively use ecosystem services
                                                                 in project formulation and evaluation. These efforts
For the 59 highest-use coastal ports and harbors, channel        will continue over time as there is no easy answer to the
conditions are expected to continue to decline due to            complex issues involved; however, ongoing efforts will
constrained funding and large increases in the costs of          facilitate more consistent results as well as the ability
doing business, particularly as they relate to fuel, steel,      to effectively build and evaluate a national portfolio of
and labor. Dredging costs have increased significantly           projects. The USACE-CW continues its efforts to balance
over the past nine years. For these projects, constructed        funding to address the variety of resources needed across
channel depths (for the channel’s center half ) were available   the country.
approximately 35% of the time during FY 2005–FY 2008.
The condition of moderate-and low-use inland and
intracoastal waterways, as well as coastal ports and harbors,    Regulatory
is expected to continue to decline.                              Despite reduced residential and commercial development
                                                                 pressures, this business line has experienced an influx
Environment: Aquatic Ecosystem                                   of permit applications of increasing complexity. The
Restoration                                                      national priorities to maintain and improve infrastructure
                                                                 and to develop alternative energy sources (wind, solar,
The goal of aquatic ecosystem restoration is to restore to a     and hydroelectric) as well as traditional energy resources
more natural condition, aquatic habitat whose structure,         (coal, oil, and gas) involve multiple regulatory agencies
function, and dynamic processes have become degraded.            and associated reviews/approvals, which often generate
To achieve its objectives, the USACE designs and                 substantial public interest.
constructs cost-effective projects that modify hydrologic
and geomorphic characteristics.                                  The Regulatory business line will continue to be energy
                                                                 and infrastructure-focused as development of energy and
The need for aquatic ecosystem restoration is great;             infrastructure resources frequently affects aquatic resources.
however, the challenge is to strike a sustainable balance        Districts ensure that activities are properly constructed
between the often-conflicting demands for funding and            and appropriately operated, and that the effectiveness of
the use of water resources. Climate change is likely to          required mitigations is well documented. Districts target
make this balancing act even more difficult in the future.       their efforts toward maximizing performance, effectiveness,
Additional work in the Everglades is dependent on future         and efficiency, both locally and regionally, with the goal of
authorizations. Progress has been made on meeting the            executing the Regulatory mission in a clear and consistent
requirements of the Columbia River Biological Opinion,           manner for the American public.
reducing future funding requirements, but there may
                              Analysis of Financial Statements
                              USACE prepares annual Civil Works financial statements in conformity
                              with generally accepted accounting principles prescribed by the Federal
                              Accounting Standards Advisory Board and the formats prescribed by the Office
                              of Management and Budget (OMB). The USACE-CW financial statements
                              are subject to an independent audit to ensure that they are free from material
                              misstatements, to improve financial management and provide accurate and
                              reliable information that is useful for assessing performance and allocating
                              resources. USACE-CW management is responsible for the integrity and
                              objectivity of the financial information presented in these financial statements.

                              The USACE-CW Consolidated Balance Sheets, Statements of Net Cost,
                              Changes in Net Position, and Combined Statements of Budgetary Resources
                              have been prepared to report the financial position and results of operations of
                              the USACE-CW, pursuant to the requirements of the Chief Financial Officers
                              (CFO) Act of 1990 and the Government Management Reform Act of 1994.
                              The following sections provide a brief description of the nature of each financial
                              statement and significant fluctuations from FY 2012 to FY 2013. The charts
                              presented in this analysis are “in millions” unless otherwise noted.

                              Balance Sheet
                              The USACE-CW Balance Sheet presents the amounts of future economic
                              benefits owned or managed by USACE-CW (assets) against the amounts owed
                              (liabilities) and amounts that comprise the difference (net position).

                              Figure 4 shows the USACE-CW Assets Comparison as of September 30, 2013
                              and 2012. Total assets amounted to $58 billion in FY 2013 and $54 billion
                              in FY 2012, a 7.4% increase. The increase is mainly attributed to additional
                              funding received in the Construction account during the 2nd Quarter, FY 2013,
                              for the disaster relief and recovery related to Hurricane Sandy.
Figure 4: Assets Comparison
                                                                                                                         FY 2013
                                                                                                                         FY 2012
                                   Fund Balance with Treasury




                                                                                                                                            Management’s Discussion and Analysis
                                        General Property, Plant
                                                 & Equipment


                                          Accounts Receivable



                                  Investments and Other Assets


                                                                  0        10,000            20,000            30,000              40,000
                                                                                                                                                                                   Civil Works 29




                                                                      As of September 30, 2013 and 2012 (Amount in millions)



                              Figure 5 shows the USACE-CW Liabilities Comparison as of September 30,
                              2013 and 2012. Total liabilities amounted to $7.3 billion in FY 2013 and
                              $7.4 billion in FY 2012, a 1.4% decrease.
30 FY 2013 United States Army Corps of Engineers Annual Financial Report


Figure 5: Liabilities Comparison
                                                                                                                                 FY 2013
                                                                                                                                 FY 2012
                                                    Accounts Payable



                                            Environmental & Disposal
                                                           Liabilities


                                                      Other Liabilities



                                                  Remaining Liability


                                                                          0         1,000             2,000             3,000              4,000
                                                                              As of September 30, 2013 and 2012 (Amount in millions)


                                     Statement of Net Cost
                                     The major elements of the Statement of Net Cost include program costs totaling
                                     $10 billion in FY 2013 and $11 billion in FY 2012, and earned revenues
                                     amounting to $2.9 billion in FY 2013 and $3.5 billion in FY 2012. Both
                                     elements are comprised of both intragovernmental and public costs. Total net
                                     costs of operations decreased by $457 million or 6.1% which is attributed to the
                                     two factors.

                                     Program costs decreased by $1 billion or 9.7% due to the completion of projects
                                     related to the Hurricane and Storm Damage Risk Reduction System, the
                                     winding down of ARRA funds, and a reduction in the environmental liabilities
                                     related to FUSRAP. Additionally, the completions of Border Patrol Stations
                                     for the Department of Homeland Security and the Herbert Hoover dike were
                                     other factors.

                                     Earned revenue decreased $607 million or 17.2% due to a decrease in revenue
                                     received from the Department of Veteran Affairs due to hospital and clinic
                                     renovations being near completion, the Department of Homeland Security for
                                     border patrol stations, fence replacements and land acquisition and a reduction
                                     in cost share collections in the Rivers and Harbors Contributed Fund.

                                     Statement of Changes in Net Position
                                     The Statement of Changes in Net Position presents those accounting items
                                     that caused the net position section of the balance sheet to change from
                                     the beginning to the end of the reporting period. Various financing sources
                                     increase net position. These financing sources include appropriations received
                                     and nonexchange revenues, such as donations and forfeitures of property and
                                     imputed financing from costs absorbed by other federal agencies. USACE-CW
                                     net cost of operations and appropriations used serve to reduce net position.

                                     Figure 6 shows the three components of the USACE-CW net position for
                                     FY 2013 and FY 2012. Overall, net position increased in FY 2013 compared
                                     to FY 2012 due to increases in each cumulative results of operations – other
                                     funds, cumulative results of operations – dedicated collections and unexpended
                                     appropriations – other funds.
Figure 6: Civil Works Net Position
                                                                                                                                   FY 2013
                                                                                                                                   FY 2012
                                      Cumulative Results of Operations -
                                                            Other Funds



                                      Cumulative Results of Operations -
                                                  Dedicated Collections



                                           Unexpended Appropriations -
                                                         Other Funds



                                                                           0        10,000              20,000            30,000             40,000
                                                                               As of September 30, 2013 and 2012 (Amount in millions)


                                     Statement of Budgetary Resources
                                     The Combined Statements of Budgetary Resources provide information on
                                     the budgetary resources that were made available to the USACE-CW as of
                                     September 30, 2013 and 2012, and the status of those budgetary resources.
                                     Budget authority is the authority provided to the USACE-CW by law to enter
                                     into obligations that will result in outlays of federal funds. Obligations incurred
                                     results from an order placed, contract awarded, or similar transaction, which will
                                     require payments during the same or a future period. Gross outlays reflect the
                                     actual cash disbursed by Treasury for USACE-CW obligations.

                                     Figure 7 shows a comparison of budget authority, obligations incurred and
                                     gross outlays in FY 2013 and FY 2012. The reported total Civil Works
                                     budget authority was $21.3 billion and $18.3 billion as of September 30,
                                     2013 and 2012, respectively. Obligations incurred amounted to $17.9 billion
                                     as of September 30, 2013, $18.4 billion as of September 30, 2012. Gross
                                     outlays amounted to $18 billion as of September 30, 2013, $20.3 billion as
                                     of September 30, 2012. The decrease in gross outlays is due to completion of
                                     projects including hurricane protection projects at the New Orleans District,
                                     the completion of Department of Veterans Affairs hospital improvements, as
                                     well as roadway construction and the completion of border patrol assets for the
                                     Department of Homeland Security at the Fort Worth and Los Angeles Districts,
                                     and additional projects authorized under ARRA, 2009.

                                                                                                                                                      Management’s Discussion and Analysis
Figure 7: Budgetary Resources

                                                      Budget Authority

                                                                                                                                      FY 2013
                                                                                                                                      FY 2012


                                                   Obligations Incurred
                                                                                                                                                                                             Civil Works 31




                                                         Gross Outlays



                                                                           0     5,000         10,000            15,000      20,000          25,000
                                                                               As of September 30, 2013 and 2012 (Amount in millions)
32 FY 2013 United States Army Corps of Engineers Annual Financial Report




                                     Statement of Assurance
                                     The management of the United States Army Corps of Engineers (USACE)
                                     Civil Works is responsible for establishing and maintaining effective internal
                                     controls and financial management systems that meet the objectives of the
                                     Federal Managers’ Financial Integrity Act of 1982 (FMFIA). USACE Civil
                                     Works conducted its assessment of the effectiveness of internal control over
                                     operations and compliance with applicable laws and regulations in accordance
                                     with Office of Management and Budget (OMB) Circular Number (No.) A-123,
                                     Management’s Responsibility for Internal Control. Based on the results of this
                                     evaluation, USACE Civil Works can provide reasonable assurance that internal
                                     control over the effectiveness and efficiency of operations and compliance with
                                     applicable laws and regulations met the objectives of FMFIA and no material
                                     weaknesses were found in the design or operation of the internal controls as of
                                     September 30, 2013.

                                     USACE Civil Works conducted its assessment of the effectiveness of internal
                                     control over financial reporting in accordance with Appendix A of OMB
                                     Circular No. A-123. Based on the results of this assessment, USACE Civil
                                     Works can provide reasonable assurance that its internal control over financial
                                     reporting as of September 30, 2013 was operating effectively and no material
                                     weaknesses were found in the design or operation of the internal control over
                                     financial reporting.

                                     The Federal Financial Management Improvement Act of 1996 (FFMIA) requires
                                     agencies to implement and maintain financial management systems that
                                     are substantially in compliance with federal financial management systems
                                     requirements, federal accounting standards promulgated by the Federal
                                     Accounting Standards Advisory Board (FASAB), and the U.S. Standard General
                                     Ledger (USSGL) at the transaction level. In addition, OMB Circular No. A-127
                                     requires agencies to implement and maintain financial management systems
                                     that are substantially in compliance with federal financial management systems
                                     requirements, federal accounting standards, and the USSGL. Evaluation results
                                     also indicated that USACE Civil Works financial management systems were
                                     found to substantially comply with FFMIA and OMB Circular No. A-127 as of
                                     September 30, 2013.




                                                                    Steven L. Stockton
                                                                  Director of Civil Works
                                                                    December 9, 2013
Federal Manager’s Financial Integrity Act
The management control objectives under the Federal              as the Consolidated Management Reviews, Directorate
Manager’s Financial Integrity Act of 1982 (FMFIA) are to         Management Reviews, Program Management Reviews, and
reasonably ensure that:                                          through the execution of internal audits. The USACE-CW
                                                                 evaluation for FY 2013 identified no material weaknesses
     Programs achieve their intended results efficiently       in the design or operation of its management and financial
       and effectively;                                          system internal controls.
     Resources are used consistent with overall mission;
                                                                 OMB Circular No. A-123, Appendix A
     Programs and resources are free from waste, fraud,
       and mismanagement;                                        The USACE-CW conducted an assessment of the
                                                                 effectiveness of its internal controls over financial reporting
     All applicable laws and regulations are followed;         in compliance with OMB Circular No. A-123, Appendix
     Controls are sufficient to minimize any improper          A, Internal Control over Financial Reporting (ICOFR)
       or erroneous payments;                                    and related DoD guidance. The USACE Executive
                                                                 Senior Assessment Team (ESAT), established in FY 2008,
     System security is in substantial compliance with         is chaired by the Deputy Commanding General and
       all relevant requirements;                                comprised of functional area Senior Executives who provide
                                                                 expert leadership and direction over the CFO Act financial
     Resources are used in accordance with the                 statement audits. USACE-CW evaluation for FY 2013 did
       organizational mission;                                   not identify any material weaknesses as of or subsequent to
                                                                 June 30, 2013.
     Financial management system are in compliance
       with federal financial systems standards; and
                                                                 Federal Financial Management
     Timely, accurate, and reliable data are maintained        Improvement Act 1996
       and used for decision making at all levels.
                                                                 The Federal Financial Management Improvement Act
The USACE-CW internal control program is designed                (FFMIA) of 1996 stipulates that government agencies
to ensure full compliance with the goals, objectives, and        “…implement and maintain financial management
requirements of FMFIA and the OMB Circulars Nos.                 systems that comply substantially with federal financial
A-123, Management’s Responsibility for Internal Control,         management systems requirements, applicable federal
A-136, Financial Reporting Requirements, and A-127,              accounting standards, and the United States Government
Financial Management Systems. The USACE-CW holds                 Standard General Ledger (USSGL) at the transactional
managers accountable for the performance, productivity,          level.” FFMIA also mandates that remediation plans be
operations and integrity of their programs through the           developed for any agency that is unable to report substantial
use of internal controls. The USACE-CW undertakes a              compliance. Substantial compliance is achieved when an
                                                                                                                                   Management’s Discussion and Analysis
combination of actions to ensure there is a reasonable level     agency’s financial management system(s) routinely provide
of assurance that internal controls are in place and operating   reliable and timely financial information for managing
effectively. Those actions consist of a combination of           day to day operations as well as produce reliable financial
inspections, audits, investigations, and management control      statements, maintain effective internal control, and comply
reviews conducted throughout the year. The USACE-                with legal and regulatory requirements.
CW also has a strong network of management control
oversight committees to include the National Management          USACE-CW’s financial management framework consists
Board, Regional Management Boards, and the Quarterly             primarily of CEFMS. CEFMS is a comprehensive and
Review Boards. The Quality Management System, another            integrated financial management system which processes
                                                                                                                                                                          Civil Works 33




management control mechanism, allows the USACE-CW                all financial transactions for all USACE-CW missions
to standardize business processes and ensure appropriate         and programs. CEFMS maintains an electronic record of
internal controls are built into those processes. Many of        the financial transactions and is in compliance with the
the USACE-CW management control evaluations are                  USSGL. USACE-CW also utilizes CEFMS to maintain
integrated into periodic management review processes such        funds control and track the execution of all direct and
34 FY 2013 United States Army Corps of Engineers Annual Financial Report


                                     reimbursable funded projects. Adequate internal control mechanisms are critical
                                     in maintaining the integrity of transactional data. To ensure proper separation
                                     of duties, CEFMS includes a robust electronic signature process, utilizing public
                                     key infrastructure (PKI), and has a role-based security feature to reinforce its
                                     internal controls. CEFMS provides reliable and timely financial information for
                                     managing its financial operations. Internal controls are embedded throughout
                                     CEFMS to ensure data integrity and to prevent fraud, waste, and abuse through
                                     the segregation of duties using role-based controls. CEFMS is the primary
                                     reason why USACE has received unqualified audit opinions on its Civil Works
                                     financial statements for the past six consecutive fiscal years.

                                     USACE-CW has evaluated its financial management systems and has
                                     determined that they substantially comply with the requirements of the FFMIA
                                     of 1996 (Section 801 of title 31, USC), the OMB Circular No. A-127, and the
                                     DoD Financial Management Regulations, Volume 1, Chapter 3.

                                     Summary
                                     Although USACE-CW has no material weaknesses to report as a result of
                                     the above internal control evaluations, management remains committed to
                                     addressing the material weaknesses and significant deficiencies identified
                                     as a result of audits, evaluations and assessments of controls in its financial
                                     management systems and its business processes, to ensure existence of effective
                                     internal controls, systems integration, and timely and reliable financial and
                                     performance data for reporting purposes. The table below shows the number
                                     of material weaknesses, significant deficiencies and legal requirements not
                                     in compliance, as a result of the independent audits of Civil Works financial
                                     statements from FY 2009 through FY 2013:

                                                                                                          Number of Legal
                                                            Number of Material   Number of Significant   Requirements Not in
                                         Fiscal Year End      Weaknesses            Deficiencies            Compliance
                                             2009                   5                     2                      6
                                             2010                   4                     2                      3
                                             2011                   1                     3                      3
                                             2012                   0                     3                      3
                                             2013                   0                     3                      2
Limitations
Limitations of the Financial Statements
The financial statements have been prepared to report the financial position and results of operations
for the entity, pursuant to the requirements of Title 31, United States Code, Section 3515(b).

While the statements have been prepared from the books and records of the entity, in accordance with
the formats prescribed by the Office of Management and Budget, the statements are in addition to the




                                                                                                         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
financial reports used to monitor and control budgetary resources which are prepared from the same
books and records. The statements should be read with the realization that they are for a component of
the United States Government, a sovereign entity.




                                                                                                                                                                                                  Civil Works 35
36 FY 2013 United States Army Corps of Engineers Annual Financial Report


                                                      US Army Corps of Engineers - Civil Works

                                              CONSOLIDATED BALANCE SHEETS
As of September 30, 2013 and 2012
(in thousands)                                                                                   2013                    2012
ASSETS (Note 2)
     Intragovernmental:
        Fund Balance with Treasury (Note 3)                                           $                 17,927,754   $          14,461,483
        Investments (Note 4)                                                                             7,998,914               7,239,781
        Accounts Receivable (Note 5)                                                                       563,870                 606,610
     Total Intragovernmental Assets                                                   $                 26,490,538   $          22,307,874

   Cash and Other Monetary Assets (Note 6)                                                                     727                   1,691
   Accounts Receivable, Net (Note 5)                                                                     2,250,094               2,428,773
   Operating Materials and Supplies (Note 7)                                                                 7,798                  63,533
   General Property, Plant and Equipment,Net (Note 8)                                                   29,402,834              29,205,629
   Other Assets                                                                                                 44                     115
TOTAL ASSETS                                                                          $                 58,152,035   $          54,007,615

Stewardship PP&E (Note 9)

LIABILITIES (Note 10)
   Intragovernmental:
      Accounts Payable                                                                $                     46,911   $              51,752
      Debt (Note 11)                                                                                         1,721                   4,273
      Due to Treasury - General Fund (Note 13)                                                           2,227,470               2,408,205
      Other Liabilities (Notes 13 & 14)                                                                    631,707                 816,921
   Total Intragovernmental Liabilities                                                                   2,907,809               3,281,151

   Accounts Payable - Public                                                                               734,245                 788,679
   Federal Employee and Veterans’ Benefits                                                                 268,952                 261,352
   Environmental and Disposal Liabilities (Note 12)                                                        977,023                 998,241
   Other Liabilities (Notes 13 & 14)                                                                     2,399,257               2,023,592
TOTAL LIABILITIES                                                                     $                  7,287,286   $           7,353,015

Contingencies (Note 14)

NET POSITION
   Unexpended Appropriations - Other Funds                                            $                  7,099,379   $           5,014,903
   Cumulative Results of Operations - Dedicated Collections (Note 19)                                   14,445,950              12,710,452
   Cumulative Results of Operations - Other Funds                                                       29,319,420              28,929,245
TOTAL NET POSITION                                                                    $                 50,864,749   $          46,654,600

TOTAL LIABILITIES AND NET POSITION                                                    $                 58,152,035   $          54,007,615

The accompanying notes are an integral part of these financial statements.
                                                     US Army Corps of Engineers - Civil Works

                                      CONSOLIDATED STATEMENTS OF NET COST
For the years ended September 30, 2013 and 2012
(in thousands)                                                                                  2013                     2012
Program Costs
     Gross Costs (Note 15)                                                           $                  9,963,341    $          11,027,330
     Less: Earned Revenue                                                                              (2,910,901)              (3,517,657)
Net Cost of Operations                                                               $                  7,052,440    $           7,509,673

The accompanying notes are an integral part of these financial statements.




                                                                                                                                              Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
                                                                                                                                                                                                                                       Civil Works 37
38 FY 2013 United States Army Corps of Engineers Annual Financial Report


                                                       US Army Corps of Engineers - Civil Works

                         CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION
For the years ended September 30, 2013 and 2012
                                                                           2013 Dedicated                                2013 Consolidated
(in thousands)                                                               Collections              2013 Other               Total
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                                     $          12,710,452      $        28,929,245    $       41,639,697
Budgetary Financing Sources:
     Appropriations used                                                                    -               6,818,227             6,818,227
     Nonexchange revenue                                                            1,769,198                   3,220             1,772,418
     Transfers-in/out without reimbursement                                            46,465                  96,308               142,773
Other Financing Sources (Non-exchange):
     Donations and forfeitures of property                                                 -                    2,462                 2,462
     Transfers-in/out without reimbursement                                                -                  135,538               135,538
     Imputed financing from costs absorbed by others                                   1,835                  304,860               306,695
     Other (+/-)                                                                           -                        -                     -
Total Financing Sources                                                            1,817,498                7,360,615             9,178,113
Net Cost of Operations                                                                82,000                6,970,440             7,052,440
Net Change                                                                         1,735,498                  390,175             2,125,673
Cumulative Results of Operations                                       $          14,445,950      $        29,319,420    $       43,765,370

UNEXPENDED APPROPRIATIONS
Beginning Balances                                                     $                     -    $         5,014,903    $        5,014,903
Budgetary Financing Sources:
    Appropriations received                                                                -                9,385,492             9,385,492
    Appropriations transferred-in/out                                                      -                        -                     -
    Other adjustments (rescissions, etc.)                                                  -                 (482,789)             (482,789)
    Appropriations used                                                                    -               (6,818,227)           (6,818,227)
Total Budgetary Financing Sources                                                          -                2,084,476             2,084,476
Unexpended Appropriations                                                                  -                7,099,379             7,099,379
Net Position                                                           $          14,445,950      $        36,418,799    $       50,864,749

The accompanying notes are an integral part of these financial statements.
                                                       US Army Corps of Engineers - Civil Works

                         CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION
For the years ended September 30, 2013 and 2012
                                                                           2012 Dedicated                                2012 Consolidated
(in thousands)                                                               Collections              2012 Other               Total
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                                     $          10,819,526      $        28,405,558    $       39,225,084
Budgetary Financing Sources:
     Appropriations used                                                                    -               7,515,953             7,515,953
     Nonexchange revenue                                                            1,813,267                    (348)            1,812,919
     Transfers-in/out without reimbursement                                            43,707                  89,875               133,582
Other Financing Sources (Non-exchange):
     Donations and forfeitures of property                                                 -                      266                   266
     Transfers-in/out without reimbursement                                                -                  136,029               136,029
     Imputed financing from costs absorbed by others                                   3,444                  322,093               325,537
     Other (+/-)                                                                      (1,247)                   1,247                     -
Total Financing Sources                                                            1,859,171                8,065,115             9,924,286
Net Cost of Operations                                                               (31,755)               7,541,428             7,509,673
Net Change                                                                         1,890,926                  523,687             2,414,613
Cumulative Results of Operations                                       $          12,710,452      $        28,929,245    $       41,639,697

UNEXPENDED APPROPRIATIONS
Beginning Balances                                                     $                     -    $         6,813,138    $        6,813,138
Budgetary Financing Sources:
    Appropriations received                                                                -                5,719,292             5,719,292
    Appropriations transferred-in/out                                                      -                   (1,643)               (1,643)
    Other adjustments (rescissions, etc.)                                                  -                       69                    69




                                                                                                                                               Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
    Appropriations used                                                                    -               (7,515,953)           (7,515,953)
Total Budgetary Financing Sources                                                          -               (1,798,235)           (1,798,235)
Unexpended Appropriations                                                                  -                5,014,903             5,014,903
Net Position                                                           $          12,710,452      $        33,944,148    $       46,654,600

The accompanying notes are an integral part of these financial statements.




                                                                                                                                                                                                                                        Civil Works 39
40 FY 2013 United States Army Corps of Engineers Annual Financial Report


                                                     US Army Corps of Engineers - Civil Works

                               COMBINED STATEMENT OF BUDGETARY RESOURCES
For the years ended September 30, 2013 and 2012
(in thousands)                                                                            2013 Combined              2012 Combined
Budgetary Resources
Unobligated balance brought forward, October 1                                       $              8,610,077    $             8,528,488
Recoveries of prior year unpaid obligation                                                            415,350                     93,483
Other changes in unobligated balance                                                                      (32)                    (1,664)
Unobligated balance from prior year budget authority, net                                           9,025,395                  8,620,307
Appropriations (discretionary and mandatory)                                                       10,431,745                  7,641,853
Spending Authority from offsetting collections                                                     10,821,836                 10,698,950
Total Budgetary Resources                                                            $             30,278,976    $            26,961,110

Status of Budgetary Resources:
Obligations Incurred                                                                 $             17,917,199    $            18,351,033
Unobligated balance, end of year
    Apportioned                                                                                    11,038,039                  7,411,953
    Exempt from Apportionment                                                                       1,319,517                  1,184,183
    Unapportioned                                                                                       4,221                     13,941
Unobligated balance brought forward, end of year                                                   12,361,777                  8,610,077
Total Budgetary Resources                                                            $             30,278,976    $            26,961,110

Change in Obligated Balance:
Unpaid obligations, brought forward, October 1                                       $              8,374,732    $            10,405,457
Obligations incurred                                                                               17,917,199                 18,351,033
Outlays (gross) (-)                                                                               (18,062,556)               (20,288,275)
Recoveries of prior year unpaid obligations (-)                                                      (415,350)                   (93,483)
Unpaid obligations, end of year                                                                     7,814,025                  8,374,732
Uncollected payments, Federal sources, brought forward, October 1                                  (2,176,727)                (3,097,701)
Change in uncollected payments, Federal Sources (+ or -)                                              235,385                    920,974
Uncollected customer payments, Federal sources, end of year (-)                                    (1,941,342)                (2,176,727)
Obligated balance, start of year (net)                                                              6,198,005                  7,307,756
Obligated balance, end of year                                                       $              5,872,683    $             6,198,005

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                                $             21,253,581    $            18,340,803
Actual offsetting collections (discretionary and mandatory) (-)                                   (10,963,467)               (11,953,668)
Change in uncollected customer payments from Federal Sources (discretionary and
    mandatory) (+ or -)                                                                               235,385                    920,974
Budget Authority, net (discretionary and mandatory)                                  $             10,525,499    $             7,308,109
Outlays, gross (discretionary and mandatory)                                                       18,062,556                 20,288,275
Actual offsetting collections (discretionary and mandatory) (-)                                   (10,963,467)               (11,953,668)
Outlays, net (discretionary and mandatory)                                                          7,099,089                  8,334,607
Distributed offsetting receipts                                                                     (806,706)                   (552,645)
Agency Outlays, net (discretionary and mandatory)                                    $              6,292,383    $             7,781,962

The accompanying notes are an integral part of these financial statements.
Note 1.	 Significant Accounting Policies
1.A.	 Mission of the Reporting Entity
The primary mission of the United States (U.S.) Army Corps of Engineers (USACE) Civil Works Program includes
maintaining navigation channels, reducing flooding, assisting during natural disasters and other emergencies, and making
waterways passable. The USACE also supports the Department of Homeland Security in carrying out the National
Response Plan. USACE’s primary role in support of this plan is to provide emergency support in areas of public works and
engineering. USACE responds to more than 30 presidential disaster declarations in a typical year, and its highly trained
workforce is prepared to deal with both man-made and natural disasters.

1.B.	 Basis of Presentation and Accounting
These financial statements have been prepared to report the financial position and results of operations of USACE, as
required by the Chief Financial Officers Act of 1990, expanded by the Government Management Reform Act of 1994.
The financial statements have been prepared from the books and records of USACE in accordance with the U.S. generally
accepted accounting principles (GAAP) for Federal entities and the formats prescribed by the Office of Management and
Budget (OMB) Circular Number (No.) A-136, Financial Reporting Requirements. The accompanying financial statements
account for all Civil Works resources for which USACE is responsible.

The accounting structure of Federal agencies is designed to reflect both accrual and budgetary accounting transactions.
Under the accrual method of accounting, revenues are recognized when earned and expenses are recognized when incurred
without regard to the receipt or payment of cash. The budgetary accounting principles, on the other hand, are designed
to recognize the obligation of funds according to legal requirements, which in many cases is prior to the occurrence of
an accrual-based transaction. The recognition of budgetary accounting transactions is essential for compliance with legal
constraints and controls over the use of Federal funds.

USACE has presented comparative financial statements for the Consolidated Balance Sheet, Consolidated Statements




                                                                                                                            Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
of Net Cost and Changes in Net Position, and Combined Statement of Budgetary Resources, in accordance with OMB
financial statement reporting guidelines.

USACE transactions are recorded on an accrual accounting basis as required by GAAP. USACE’s financial management
system meets all of the requirements for full accrual accounting.

1.C.	 Fund Types
General funds are used for financial transactions funded by Congressional appropriations, including personnel, operation
and maintenance, research and development, procurement, and construction accounts.

Revolving funds received funding to establish an initial corpus through an appropriation or a transfer of resources from
existing appropriations or funds. The corpus finances operations and transactions that flow through the fund. The
revolving fund finances the goods and services sold to customers on a reimbursable basis and maintains the corpus.
Reimbursable receipts fund future operations and generally are available in their entirety for use without further
congressional action.

Special funds are used to record government receipts reserved for a specific purpose.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out specific
                                                                                                                                                                                                                     Civil Works 41




purposes or programs in accordance with the terms of the donor, trust agreement, or statute.

Contributed funds are received from the public for construction of assets under local cost sharing agreements.
42 FY 2013 United States Army Corps of Engineers Annual Financial Report


Most USACE trust, contributed, and special funds are designated as funds from dedicated collections. These funds are
financed by specifically identified revenues, required by statute to be used for designated activities, benefits or purposes,
and remain available over time. USACE is required to separately account for and report on the receipt, use and retention
of revenues and other financing sources for dedicated collections.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public entity.
They are not USACE funds, and as such, are not available for USACE’s operations. USACE is acting as an agent or a
custodian for funds awaiting distribution.

Clearing accounts are used to record the amount of unprocessed intragovernmental payments and collections transmitted
to USACE from other federal agencies.

Receipt accounts are used to record amounts such as interest, land lease proceeds, fines and penalties that are deposited in
the U.S. Treasury.

A summary of USACE accounts follows:

General Funds
96X3112	 Mississippi River and Tributaries
96 3113	   Mississippi River and Tributaries - Recovery Act (fiscal year)
96X3121	Investigations
96 3121	   Investigations (fiscal year)
96X3122	Construction
96 3122	   Construction (fiscal year)
96X3123	 Operation and Maintenance
96 3123	   Operation and Maintenance (fiscal year)
96X3124	Expenses
96 3124	   Expenses (fiscal year)
96X3125	 Flood Control and Coastal Emergencies
96 3125	   Flood Control and Coastal Emergencies (fiscal year)
96X3126	 Regulatory Program
96 3126	   Regulatory Program (fiscal year)
96X3128	 Washington Aqueduct Capital Improvements
96 3129	   Payment to the South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund (fiscal year)
96X3130	 Formerly Utilized Sites Remedial Action Program
96X3132	 Office of Assistant Secretary of the Army, Civil Works
96 3132	   Office of Assistant Secretary of the Army, Civil Works (fiscal year)
96 3133	   Investigations - Recovery Act (fiscal year)
96 3134	   Construction – Recovery Act (fiscal year)
96 3135	   Operation and Maintenance – Recovery Act (fiscal year)
96 3136	   Regulatory Program – Recovery Act (fiscal year)
96 3137	   Formerly Utilized Sites Remedial Action Program – Recovery Act (fiscal year)
96 3138	   General Expenses – Recovery Act (fiscal year)
96X6094	 Advances from the District of Columbia

Revolving Funds
96X4902	 Revolving Fund
Special Funds
96X5007	 Special Recreation Use Fees
96X5066	 Hydraulic Mining in California, Debris
96X5090	 Payments to States, Flood Control Act of 1954
96X5125	 Maintenance and Operation of Dams and Other Improvements of Navigable Waters
96X5493	 Fund for Nonfederal Use of Disposal Facilities
96 5493	    Fund for Nonfederal Use of Disposal Facilities (fiscal year)

Trust Funds
96X8217	 South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
96X8333	 Coastal Wetlands Restoration Trust Fund
96X8861	 Inland Waterways Trust Fund
96X8863	 Harbor Maintenance Trust Fund

Trust Funds (Contributed)
96X8862	 Rivers and Harbors Contributed and Advance Funds

Deposit Funds
96X6500	 Advances Without Orders from Non-Federal Sources
96X6501	 Small Escrow Amounts

Clearing Accounts
96F3875	 Budget Clearing Account (suspense)
96F3880	 Unavailable Check Cancellations and Overpayments (suspense)
96F3885	 Undistributed Intragovernmental Payments

Receipt Accounts




                                                                                                                         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
96R0891	 Miscellaneous Fees for Regulatory and Judicial Services, Not Otherwise Classified
96R1060	 Forfeitures of Unclaimed Money and Property
96R1099	 Fines, Penalties, and Forfeitures, Not Otherwise Classified
96R1299	 Gifts to the United States, Not Otherwise Classified
96R1435	 General Fund Proprietary Interest, Not Otherwise Classified
96R3220	 General Fund Proprietary Receipts, Not Otherwise Classified, All Other
96R5005	 Land and Water Conservation Fund
96R5007	 Special Recreation Use Fees
96R5066	 Hydraulic Mining in California
96R5090	 Receipts from Leases of Lands Acquired for Flood Control, Navigation, and Allied Purposes
96R5125	 Licenses under Federal Power Act, Improvements of Navigable Waters, Maintenance and Operation of
            Dams, etc.
96R5493	 User Fees, Fund for Nonfederal Use of Disposal Facilities
96R8862	 Contributions and Advances, Rivers and Harbors

1.D.	Financing Sources
USACE receives Federal funding through the annual Energy and Water Development Appropriations Act. Funding
also comes from nonfederal project sponsors who share in project costs according to formulas established by project
                                                                                                                                                                                                                  Civil Works 43




authorization acts. A third source of funding comes through the Support for Others Program, which is conducted under
reimbursable agreements with Federal agencies.

USACE receives its appropriations and funds as general, revolving, trust, special, and deposit funds. USACE uses these
appropriations and funds to execute its mission and subsequently report on resource usage.
44 FY 2013 United States Army Corps of Engineers Annual Financial Report


USACE received borrowing authority from the U.S. Treasury to finance capital improvements to the
Washington Aqueduct.

USACE receives congressional appropriations as financing sources that expire annually, on a multi-year basis, or do not
expire. When authorized by legislation, these appropriations are supplemented by revenues generated by sales of services.
USACE recognizes revenue as a result of costs incurred for goods or services provided to other Federal agencies and the
public. Full cost pricing is USACE’s standard policy for goods or services provided as required by OMB Circular No.
A-25, User Charges.

USACE records two types of revenue: exchange and non-exchange. Exchange revenue is the inflow of resources that
USACE has earned by providing something of value to the public or another Federal entity at a price. The main sources of
exchange revenue are customer orders (reimbursable agreements) and cost sharing revenue.

Customer orders are contracts where USACE provides services under a reimbursable agreement; the related revenue and
accounts receivable are recorded simultaneously along with the costs and payables. For nonfederal entities, an advance
payment is required and USACE records advances from others. USACE reduces the advances and recognizes revenue as
services are provided.

Cost sharing revenue arises from agreements under which USACE constructs assets, the cost of which will be borne in part
by another entity (sponsor). Throughout the life of a cost share project, USACE revenue is earned based on the sponsor’s
proportionate share of project costs incurred. Sponsors are generally required to provide funds in advance and USACE
records deferred credits. USACE reduces the deferred credits and recognizes revenue at the time of the withdrawal for
costs incurred.

Non-exchange revenue represents resources received by USACE when a good or service is not provided in exchange for
that revenue. Non-exchange revenue generally consists of interest earned on investments from excise taxes and port fees,
penalties, and donations.

1.E.	 Recognition of Expenses
USACE recognizes expenses in the period incurred or consumed. USACE’s expenditures for capital assets are recognized as
operating expenses as the assets are depreciated or amortized.

1.F.	 Accounting for Intragovernmental Activities
USACE eliminates transactions within USACE Civil Works Program in these consolidated financial statements.
Accounting standards require that an entity eliminate intraentity activity and balances from consolidated financial
statements in order to prevent overstatement for business with itself.

Intragovernmental costs and revenue represent transactions made between two reporting entities within the Federal
government. Costs and revenues with the public represent transactions made between the reporting entity and a
nonfederal entity. The classification of revenue or cost as “intragovernmental” or “with the public” is defined on a
transaction-by-transaction basis. The purpose of this classification is to enable the Federal government to prepare
consolidated financial statements.

Generally, financing for the construction of USACE’s facilities is obtained through appropriations. To the extent this
financing ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized
because the U.S. Treasury does not allocate such costs to USACE.

In accordance with Statement of Federal Financial Accounting Standard (SFFAS) No. 4, Managerial Cost Accounting
Concepts and Standards, USACE recognizes imputed financing and cost for unreimbursed goods and services provided
by others. These costs include unreimbursed rent, interest during construction, Judgment Fund payments on behalf of
USACE, and employee benefits.

1.G.	Entity and Nonentity Assets
The assets are categorized as entity or nonentity. Entity assets consist of resources that USACE has the authority to
use, or where management is legally obligated to use funds to meet entity obligations. Nonentity assets consist of
resources for which USACE maintains stewardship accountability and responsibility to report but are not available for
USACE operations.

1.H.	Funds with the U.S. Treasury
USACE’s monetary financial resources are maintained in U.S. Treasury accounts. The disbursing offices of USACE
Finance Center (UFC), the Defense Finance and Accounting Service (DFAS), and the Department of State’s financial
service centers process the majority of USACE’s cash collections, disbursements, and adjustments worldwide. Each
disbursing station prepares monthly reports that provide information to the U.S. Treasury on check issued, electronic fund
transfers, interagency transfers, and deposits.

In addition, UFC and DFAS sites submit reports to the U.S. Treasury by appropriation on interagency transfers, collections
received, and disbursements issued. The U.S. Treasury records this information to the applicable Fund Balance with
Treasury (FBWT) account. Differences between USACE’s recorded balance in FBWT accounts and U.S. Treasury’s FBWT
accounts sometimes result and are subsequently reconciled on a monthly basis.

1.I.	Investments
USACE reports investments in U.S. Treasury securities at cost, net of amortized premiums or discounts. Premiums
or discounts are amortized over the term of the investment using the effective interest rate method or another method
obtaining similar results. USACE’s intent is to hold investments to maturity, unless they are needed to finance claims or




                                                                                                                                 Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
otherwise sustain operations. Consequently, a provision is not made for unrealized gains or losses on these securities.

The Bureau of Fiscal Service (BFS), on behalf of USACE, invests in nonmarketable securities. Nonmarketable, market-
based intragovernmental securities mimic marketable securities, but are not publicly traded.

Net investments are primarily held by the Harbor Maintenance Trust Fund.

1.J.	 Accounts Receivable
Accounts receivable includes three categories: accounts, claims, and refunds receivable from other Federal entities or
from the public. USACE bases the allowance for uncollectible accounts receivable due from the public on established
percentages per aged category of the cumulative balance of delinquent public receivables. USACE regards its
intragovernmental accounts receivable balance as fully collectable.

Accounts receivable also includes amounts stemming from long-term water storage agreements based on the cost of
construction to be recouped by USACE from the municipality and Louisiana coastal restoration. USACE performs an
analysis of the collectability of the receivables periodically and recognizes an allowance for estimated uncollectible amounts
from the municipality.

1.K.	Operating Materials and Supplies
                                                                                                                                                                                                                          Civil Works 45




USACE operating materials and supplies are stated at historical cost under moving average cost method and are adjusted
for the results of physical inventories. Operating materials and supplies are expensed when consumed.
46 FY 2013 United States Army Corps of Engineers Annual Financial Report



1.L.	 General Property, Plant and Equipment
USACE General Property, Plant, and Equipment (PP&E) is capitalized at historical acquisition cost plus capitalized
improvements when an asset has a useful life of two or more years, and the acquisition cost exceeds $25 thousand with the
exception of buildings and structures related to hydropower projects which are capitalized regardless of cost.

USACE uses estimates to support the historical costs of its real property assets, including the administrative costs of land,
acquired prior to FY 1999, and personal property assets acquired prior to FY 2003. The estimates are necessary because
certain supporting documentation to substantiate recorded costs for those assets is no longer available. Management’s
estimation methods, which are consistent with the principles, relevant to USACE circumstances, as contained in SFFAS
No. 6, Accounting for Property, Plant and Equipment; SFFAS No. 23, Eliminating the Category National Defense Property,
Plant And Equipment; and SFFAS No. 35, Estimating the Historical Cost of General Property, Plant, and Equipment:
Amending Statements of Federal Financial Accounting Standards 6 and 23; consist of using a combination of appropriation or
engineering documents, or other available real estate, financial, appropriations, and operations data, combined with written
management attestation statements, to estimate and support the original acquisition or construction costs recorded for
each asset.

Construction in Progress (CIP) is used to accumulate the cost of construction and accumulated costs are transferred from
CIP to the relevant asset category when an asset is completed.

1.M.	Leases
Lease payments for the rental of equipment and operating facilities are classified as operating leases. An operating lease
does not substantially transfer all the benefits and risk of ownership. Payments for operating leases are charged to expense
over the lease term as it becomes payable.

1.N.	Other Assets
Other assets include travel advances that are not reported elsewhere on USACE’s Balance Sheet.

1.O.	Accounts Payable
Accounts payable are the amounts owed, but not yet paid, by USACE for goods and services received from other entities,
progress in contract performance made by other entities, and rents due to other entities. USACE has no known delinquent
accounts payable.

1.P.	Debt
USACE debt consists of the amount owed to the U.S. Treasury for capital improvements to the Washington Aqueduct.
USACE entered into an agreement with Arlington County and the City of Falls Church, Virginia, to provide funding to
USACE to repay the debt.

1.Q.	Due to Treasury – General Fund
USACE reported an offsetting custodial liability for amounts Due to Treasury – General Fund for interest and accounts
receivable which, when collected, will be deposited in the U.S. Treasury.

1.R.	 Federal Employee and Veterans’ Benefits
The Federal Employees and Veterans’ Benefits liability consist of the actuarial liability for Federal Employees Compensation
Act benefits. The Department of the Army (DA) actuarial liability for workers’ compensation benefits is developed by
the Department of Labor (DOL) and provided to the DA at the end of each fiscal year. The liability for future workers’
compensation benefits includes the expected liability for death, disability, medical and miscellaneous costs for approved
compensation cases, plus a component for incurred but not reported claims. The liability is determined using a method
that utilizes historical benefit payment patterns related to a specific incurred period to predict the ultimate payments
related to that period. Consistent with past practice, these projected annual benefit payments have been discounted to
present value using the OMB’s economic assumptions for 10-year U.S. Treasury notes and bonds.

1.S.	 Other Liabilities
USACE reports a liability for funded payroll and benefits, to include civilian earned leave, except sick leave, that has been
accrued and not used as of the Balance Sheet date. Sick leave is expensed as taken. The liability reported at the end of the
accounting period reflects current pay rates.

The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by SFFAS No. 12, Recognition
of Contingent Liabilities Arising from Litigation, defines a contingency as an existing condition, situation, or set of
circumstances that involves an uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more
future events occur or fail to occur. USACE recognizes contingent liabilities when past events or exchange transactions
occur, a future loss is probable, and the loss amount can be reasonably estimated. USACE discloses contingent liabilities
when conditions for liability recognition do not exist but there is at least a reasonable possibility of incurring a loss or
additional losses.

Examples of loss contingencies include the collectability of receivables, pending or threatened litigation, and possible claims
and assessments. USACE’s risk of loss and resultant contingent liabilities arise from pending or threatened litigation or
claims and assessments due to events such as aircraft, ship and vehicle accidents; property or environmental damages; and
contract disputes.

1.T.	 Environmental and Disposal Liabilities
Environmental and disposal liabilities include future costs to address government-related environmental contamination at
USACE sites and other sites at which USACE is directed by Congress to perform remediation work. USACE recognizes
a liability for each site as the need for cleanup work becomes probable and costs, based on site-specific engineering




                                                                                                                                  Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
estimates, become measurable. Costs to address environmental contamination not caused by the government are recorded
as incurred. Cleanup remedies are selected from feasible alternatives using the decision-making process prescribed by the
Comprehensive Environmental Response, Compensation, and Liability Act.

1.U.	Liabilities Not Covered by Budgetary Resources
Liabilities not covered by budgetary resources are those liabilities for which Congressional action is needed before
budgetary resources can be provided.

1.V.	 Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.

Unexpended Appropriations include the amounts of authority that are unobligated and have not been rescinded or
withdrawn. Unexpended Appropriations also include amounts obligated for which legal liabilities for payments have not
been incurred.

Cumulative Results of Operations represent the net difference, since inception of an activity, between expenses and losses,
and financing sources (including appropriations, revenue, and gains).
                                                                                                                                                                                                                           Civil Works 47




1.W.	Allocation Transfers
USACE is a party to allocation transfers with other Federal agencies both as a transferring (parent) entity and receiving
(child) entity. Allocation transfers are legal delegations by one agency of its authority to obligate budget authority and
outlay funds to another agency. A separate fund account (allocation account) is created in the U.S. Treasury as a subset
48 FY 2013 United States Army Corps of Engineers Annual Financial Report


of the parent fund account for tracking and reporting purposes. All allocation transfers of balances are credited to this
account, and subsequent obligations and outlays incurred by the child entity are charged to this allocation account as they
execute the delegated activity on behalf of the parent entity. Generally, all financial activity related to these allocation
transfers (e.g., budget authority, obligations, outlays) is reported in the financial statements of the parent entity, from
which the underlying legislative authority, appropriations and budget apportionments are derived. Exceptions to this
general rule affecting USACE include certain U.S. Treasury-Managed Trust Funds for whom USACE is the parent in the
allocation transfer, but per OMB guidance, the child agencies will report budgetary and proprietary activity relative to
these allocation transfers in their financial statements. The U.S. Treasury-Managed Trust Funds, which are included in
USACE financial statements, are South Dakota Terrestrial Wildlife Habitat Restoration, Inland Waterways, and Harbor
Maintenance trust funds. The U.S. Treasury, BFS, on behalf of USACE, makes allocation transfers from the Harbor
Maintenance Trust Fund to the Saint Lawrence Seaway Development Corporation and the U.S. Customs and Border
Protection agency.

In addition to these funds, USACE received allocation transfers, as the child, from Departments of Agriculture, Interior,
Transportation, Energy and the Appalachian Regional Commission.

1.X.	 Change in Accounting Principle
Beginning in fiscal year (FY) 2013 USACE changed its accounting policy for recording recoveries of prior year obligations
from a project to project basis to a transaction based recording to more closely align with OMB Circular Number A-11
requirements. This change in accounting principle is applied prospectively and only impacts the Combined Statement of
Budgetary Resources for the fiscal year ended September 30, 2013, as such the amount is not comparable with FY 2012.

Note 2.	 Nonentity Assets
As of September 30
($ in thousands)                                                                  2013                       2012
Nonentity Assets
Intragovernmental Assets
     Fund Balance with Treasury                                          $                  14,518    $                11,118
     Accounts Receivable                                                                        11                          -
Total Intragovernmental Assets                                                              14,529                     11,118

Cash and Other Monetary Assets                                                                  727                      1,691
Accounts Receivable                                                                       2,227,499                  2,408,249
Total Nonfederal Assets                                                                   2,228,226                  2,409,940

Total Nonentity Assets                                                                    2,242,755                  2,421,058
Total Entity Assets                                                                      55,909,280                 51,586,557
Total Assets                                                             $               58,152,035   $             54,007,615

Other Information

Intragovernmental Nonentity Fund Balance with Treasury consists of amounts collected into deposit and suspense accounts
and is not available for use in operations. Deposit and suspense accounts are used to record amounts held temporarily
until ownership is determined. USACE is acting as an agent or custodian for funds awaiting distribution.

Intragovernmental Nonentity Accounts Receivable represents all receivables from federal sources where USACE does not
have specific statutory authority to retain the receipts. This receivable is for a long-term agreement for an easement.

Cash and Other Monetary Assets reflect the Disbursing Officer’s Accountability which is comprised of foreign currency.
The Disbursing Officer acts as an agent for the U. S. Treasury.
Nonfederal Accounts Receivable represents all receivables from nonfederal sources where USACE does not have specific
statutory authority to retain the receipts. These receivables consist of multiple types of long-term agreements such as
easements, sale of hydroelectric power, recreational development, and long-term water storage agreements.

Note 1.J “Accounts Receivable”, Note 5, “Accounts Receivable, Net”, and Note 13, “Due to Treasury – General Fund and
Other Liabilities”, provide additional information related to long-term water storage agreements.

Note 3.	Fund Balance with Treasury
As of September 30
($ in thousands)                                                                  2013                        2012
Fund Balances
     General Funds                                                       $               14,896,365    $             11,675,098
     Revolving Funds                                                                      1,684,548                   1,579,441
     Trust Funds                                                                            107,468                     102,746
     Special Funds                                                                           91,372                      81,458
     Contributed Funds                                                                    1,093,463                     979,219
     Other Fund Types                                                                        54,538                      43,521
Total Fund Balances                                                      $               17,927,754    $             14,461,483

Status of Fund Balance with Treasury
As of September 30
($ in thousands)                                                                  2013                        2012
Unobligated Balance
     Available                                                           $               12,357,556    $              8,596,136
     Unavailable                                                                              4,221                      13,941
Obligated Balance not yet Disbursed                                                       7,814,025                   8,374,732
Nonbudgetary FBWT                                                                            92,907                      84,044




                                                                                                                                   Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Non FBWT Budgetary Accounts                                                              (2,340,955)                 (2,607,370)
Total                                                                    $               17,927,754    $             14,461,483

Other Information

The Status of Fund Balance with Treasury reflects the budgetary resources to support the FBWT and is a reconciliation
between budgetary and proprietary accounts. It primarily consists of unobligated and obligated balances. The balances
reflect the budgetary authority remaining for disbursement against current or future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority
that has not been set aside to cover outstanding obligations. The unavailable balance consists primarily of funds invested in
U.S. Treasury securities that are temporarily precluded from obligation by law. Certain unobligated balances are restricted
for future use and are not apportioned for current use. Unobligated balances for trust fund accounts are restricted for
use by the public law that established the funds. USACE is the lead agency for reporting the financial data for the Inland
Waterways, Harbor Maintenance, and South Dakota Terrestrial Wildlife Habitat Restoration trust funds. These trust
funds remain invested and restricted for use until transferred to meet current expenditure requirements.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services not received, and
those received but not paid.
                                                                                                                                                                                                                            Civil Works 49




Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as deposit and clearing accounts.

Non FBWT Budgetary Accounts reduces the Status of FBWT and includes borrowing authority, investment accounts,
accounts receivable, and unfilled orders without advance from customers.
50 FY 2013 United States Army Corps of Engineers Annual Financial Report



Note 4.	Investments and Related Interest
As of September 30                                                                         2013
                                                               Amortization     Amortized (Premium) /
($ in thousands)                               Cost              Method               Discount              Investments, Net        Market Value Disclosure
Intragovernmental Securities
Nonmarketable, Market-Based                $    8,099,987 Effective Interest               (127,288)                7,972,699                  8,078,345
Accrued Interest                                   26,215                                         -                    26,215                     26,215
Total Intragovernmental Securities         $    8,126,202                                  (127,288)                7,998,914                  8,104,560

As of September 30                                                                         2012
                                                               Amortization     Amortized (Premium) /
($ in thousands)                               Cost              Method               Discount              Investments, Net        Market Value Disclosure
Intragovernmental Securities
Nonmarketable, Market-Based                $    7,264,578 Effective Interest                  (57,704)              7,206,874                  7,416,234
Accrued Interest                                   32,907                                           -                  32,907                     32,907
Total Intragovernmental Securities         $    7,297,485                                     (57,704)              7,239,781                  7,449,141

Other Information

The Federal Government does not set aside assets to pay future benefits or other expenditures associated with funds from
dedicated collections. The cash receipts collected from the public for dedicated collections are deposited in the U.S.
Treasury, which uses the cash for general Government purposes. Treasury securities are issued to USACE as evidence
of its receipts. Treasury securities are assets to USACE and liabilities to the U.S. Treasury. Because USACE and the
U.S. Treasury are both Governmental entities, these assets and liabilities offset each other from the standpoint of the
Government as a whole. For this reason, they do not represent an asset or a liability in the U.S. Government-wide
financial statements.

Treasury securities provide USACE with authority to draw upon the U.S. Treasury to make future benefit payments
or other expenditures. When USACE requires redemption of these securities to make expenditures, the Government
finances those expenditures out of accumulated cash balances, by raising taxes or other receipts, by borrowing from the
public or repaying less debt, or by curtailing other expenditures. This is the same way that the Government finances all
other expenditures.

Total net investments among the Harbor Maintenance Trust Fund for FY 2013 and FY 2012 are $7.9 billion and
$7.1 billion, respectively.

The U.S. Treasury also provides the investment market value based on the bid price provided by the Federal Reserve Bank
of New York on September 30, 2013 and September 30, 2012, respectively.

Note 5.	Accounts Receivable, Net
As of September 30                                                                                        2013
                                                                                                  Allowance For Estimated
($ in thousands)                                                        Gross Amount Due               Uncollectibles           Accounts Receivable, Net
Intragovernmental Receivables                                       $               563,870       $                    N/A      $                563,870
Nonfederal Receivables (From the Public)                            $             2,250,390       $                   (296)     $              2,250,094
Total Accounts Receivable                                           $             2,814,260       $                   (296)     $              2,813,964

As of September 30                                                                                        2012
                                                                                                  Allowance For Estimated
($ in thousands)                                                        Gross Amount Due               Uncollectibles           Accounts Receivable, Net
Intragovernmental Receivables                                       $               606,610       $                   N/A       $                606,610
Nonfederal Receivables (From the Public)                            $             2,431,791       $                (3,018)      $              2,428,773
Total Accounts Receivable                                           $             3,038,401       $                (3,018)      $              3,035,383
Other Information

As of September 30, 2013 and September 30, 2012, Accounts Receivables Intragovernmental include $444.3 million and
$466.4 million, respectively, for amounts received from the Coastal Wetlands Restoration Trust Fund for projects in the
New Orleans District.

As of September 30, 2013 and September 30, 2012, Accounts Receivable from the Public, net of allowances, stemming
from long-term water storage and Louisiana coastal restoration, flood control and hurricane protection agreements include
$2.2 billion and $2.2 billion, respectively. These agreements have maturity dates ranging from two to fifty years, and
interest rates based on the U.S. Treasury effective rate at the time of the agreement.

Note 6.	Cash and Other Monetary Assets
As of September 30
($ in thousands)                                                                 2013                       2012
Cash                                                                     $                     -   $                     33
Foreign Currency                                                                             727                      1,658
Total Cash and Foreign Currency                                          $                   727   $                  1,691

Other Information

Cash is the total of cash resources under the control of USACE, which includes coin, paper currency, negotiable
instruments, and amounts held for deposit in banks and other financial institutions. Foreign currency consists of the total
U.S. dollar equivalent of both purchased and nonpurchased foreign currencies held in foreign currency fund accounts.

USACE conducts operations overseas on behalf of the U.S. Government which involves the use of foreign currency.
Foreign currency fluctuations require adjustments to the original obligation amount at the time of payment. USACE does
not separately identify currency fluctuations.




                                                                                                                               Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
USACE translates foreign currency to U.S. dollars utilizing the U.S. Treasury Prevailing Rate of Exchange. This rate is the
most favorable rate that would legally be available to the Federal Government for acquisition of foreign currency for its
official disbursements and accommodation of exchange transactions. There are no significant effects from changes in the
foreign currency exchange rate.

Note 7.	Operating Materials and Supplies
As of September 30
($ in thousands)                                                                 2013                       2012
Operating Materials and Supplies:
     Items Held for Use                                                  $                 7,798   $                 63,533
Total                                                                    $                 7,798   $                 63,533

Other Information

Operating materials and supplies (OM&S) is comprised of personal property to be consumed in normal operations. The OM&S
category includes materials used for constructing riverbank stabilization devices, and spare and repair parts. USACE applies
moving average cost flow assumptions to arrive at the historical cost of the ending OM&S and cost of goods consumed.

As of September 30, 2013 and 2012, there were no differences between the carrying amount and the net realizable value of
                                                                                                                                                                                                                        Civil Works 51




OM&S. There are no restrictions on the use of OM&S.

As of September 30, 2013 and 2012, USACE does not have inventories, stockpile materials, seized or forfeited properties,
or goods held under price support and stabilization programs, as defined in SFFAS No. 3, Accounting for Inventory and
Related Property.
52 FY 2013 United States Army Corps of Engineers Annual Financial Report



Note 8.	General Property, Plant & Equipment, Net
As of September 30                                                                                 2013
                                             Depreciation/                                                    (Accumulated
                                             Amortization                                                     Depreciation/
($ in thousands)                               Method        Service Life (yrs)       Acquisition Value       Amortization)          Net Book Value
Major Asset Classes
     Land                                        N/A             N/A              $          9,040,646                    N/A    $         9,040,646
     Buildings, Structures, and Facilities       S/L           20 - 100                     31,876,370    $       (16,636,063)            15,240,307
     Leasehold Improvements                      S/L          Lease term                        40,382                (33,336)                 7,046
     Software                                    S/L            2 - 10                         132,751                (96,126)                36,625
     General Equipment                           S/L            5 - 50                       1,971,684               (985,349)               986,335
     Construction-in- Progress                   N/A             N/A                         4,091,875                    N/A              4,091,875
Total General PP&E                                                                $         47,153,708    $       (17,750,874)   $        29,402,834

As of September 30                                                                                 2012
                                             Depreciation/                                                    (Accumulated
                                             Amortization                                                     Depreciation/
($ in thousands)                               Method        Service Life (yrs)       Acquisition Value       Amortization)          Net Book Value
Major Asset Classes
     Land                                        N/A             N/A              $          9,021,172                    N/A    $         9,021,172
     Buildings, Structures, and Facilities       S/L           20 - 100                     31,195,733    $       (16,090,489)            15,105,244
     Leasehold Improvements                      S/L          Lease term                        39,535                (31,951)                 7,584
     Software                                    S/L            2 - 10                         114,519                (88,826)                25,693
     General Equipment                           S/L            5 - 50                       1,892,105               (940,225)               951,880
     Construction-in- Progress                   N/A             N/A                         4,094,056                    N/A              4,094,056
Total General PP&E                                                                $         46,357,120    $       (17,151,491)   $        29,205,629

Legend for Depreciation Methods:
S/L = Straight Line   N/A = Not Applicable

Other Information

USACE currently operates and maintains 75 hydroelectric power plants, generating approximately 24% of America’s
hydroelectric power. All power generated by these hydroelectric power plants is transmitted to four Power Marketing
Administrations for distribution to power companies across the United States. The service life for USACE’s hydropower
project related assets is derived from guidance provided by the Federal Energy Regulatory Commission based on industry
standards. The hydropower project related assets make up $10.3 billion of the net book value of USACE’s PP&E in
FY 2013 and $10.2 billion in FY 2012.

As of September 30, 2013 and 2012, approximately $26.2 billion of the acquisition value recorded in the PP&E line is
being supported by alternate methods described in Note 1.L “General Property, Plant, and Equipment”. The net book
value is $10.3 billion at September 30, 2013, and $10.7 billion at September 30, 2012.

Note 9 “Stewardship Property, Plant and Equipment” provides the physical quantity information for multi-use heritage
assets that are recognized and presented with general PP&E in the basic financial statements.

There are no restrictions on the use or convertibility of general PP&E.
Note 9.	        Stewardship Property, Plant and Equipment (Stewardship PP&E)
Information Related to Stewardship PP&E

Stewardship PP&E are assets whose properties resemble those of the General PP&E that are traditionally capitalized in
the financial statements. Due to the nature of these assets, however, valuation would be difficult and matching costs
with specific periods would not be meaningful. Stewardship PP&E includes heritage assets. Heritage assets are items
of historical, natural, cultural, educational, or artistic significance, (e.g., aesthetic) or items with significant architectural
characteristics. Heritage assets are expected to be preserved indefinitely. In the case where a heritage asset serves both a
heritage function and general government operations, the asset is considered a multi-use heritage asset. Multi-use heritage
assets are recognized and presented with general PP&E in the basic financial statements.

Relevance to the USACE Mission

USACE, as a steward of public land, has the responsibility for ensuring that properties of a historical or traditional nature
located on USACE lands are preserved and managed appropriately. USACE implements Cultural Resource Management
in a positive manner that fulfills the requirements of all laws, regulations, and policies, for all project undertakings in an
environmentally and economically sound manner, and in the interest of the American public.

Stewardship Policy

USACE has the responsibility to manage cultural resources and heritage properties on USACE-owned lands. Engineering
Regulations 1105-2-100 and 1130-2-540 provide the basic guidance for the USACE Civil Works Program. The term
“cultural resources” refers to any building, site, structure, object, or other material significant in history, architecture,
archeology, or culture. Historic properties are sites that are eligible for inclusion in National Register of Historic Places.
The National Register is an inventory of historic properties important in our Nation’s history, culture, architecture,
archeology, and engineering. The National Register office within the National Park Service maintains the inventory.
Properties are either listed on the National Register, have formally been determined eligible, or appear to meet eligibility




                                                                                                                                     Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
criteria to be listed. In addition to the Engineering Regulations, USACE also adheres to Army Regulations 200-4 and 870-
20 related to managing cultural resources and heritage assets.

Heritage Asset Categories

    1.	 Buildings and Structures. Buildings and structures are those heritage assets listed on, or eligible for listing on,
        the National Register of Historic Places. Buildings and structures include a range of historic resources from the
        Crooked Creek Lake Dam located in Pennsylvania and the Indiana and Michigan Canal in Illinois. They also
        include some non-traditional structures, such as the War Eagle, a steamer that caught fire in Lacrosse, Wisconsin
        in 1870. There are 95 buildings and structures listed on the National Register and 261 determined eligible
        for listing. There are a total of 356 heritage assets in this category; this reflects an increase of 44 building and
        structures, 34 of which were reclassified as archeological sites, from the prior fiscal yearend report. Additionally,
        we noted 99 building and structures as multi-use heritage assets within our districts and divisions. An example
        of a multi-use heritage asset within the Corps is the Mill Spring Mill in Kentucky, which is listed on the National
        Register of historic places and serves as a full service visitor center.

    2.	 Archeological Sites. Cemeteries and archeological sites are archeological properties listed on or eligible for
        listing in the national Register of Historic Places. The current National Register inventory for USACE included
        118 archeological properties listed and 511 archeological properties determined to be eligible for listing. This total
        of 629 archeological sites reflects an increase of 22 from the prior fiscal yearend report.
                                                                                                                                                                                                                              Civil Works 53




    3.	 Museum Collection Items (Objects). Museum collection items are unique for one or more of the following
        reasons: historical or natural significance; cultural, educational or artistic importance; or significant technical or
        architectural characteristics. These items are divided into two subcategories: fine art and objects. These include
        museum collection items that have historical or cultural significance, but lack formal listing and the demonstrated
        need for active maintenance. USACE added a net of 6 items to the Museum Collection Items for FY 2013.
54 FY 2013 United States Army Corps of Engineers Annual Financial Report


                                         As of                                                 As of                                                     As of
                                   30 September 2011   Increase        Decrease          30 September 2012    Increase            Decrease         30 September 2013
Building and Structures                       360                 31              (79)              312                  53                  (9)              356
Archeological Sites                           561                 59              (13)              607                  30                  (8)              629
Museum Collection Items                       201                 16               (6)              211                   8                  (2)              217

Acquisition and Withdrawal of Heritage Assets

USACE reported the additions and deletions through its normal process of established regulations for identifying Heritage
Asset. USACE provides this information to the keeper of the National Register of Historic Places at the Department of the
Interior, National Park Service. USACE adds museum collections as items are unearthed or otherwise acquired on USACE
lands. USACE removes museum collections when items are donated to museums, universities, or returned to tribes.

Note 10.	Liabilities Not Covered by Budgetary Resources
As of September 30
($ in thousands)                                                                                       2013                                  2012
Intragovernmental Liabilities
     Debt                                                                                  $                      1,721       $                            4,273
     Due to Treasury - General Fund                                                                           2,227,470                                2,408,205
     Other                                                                                                      238,485                                  233,920
Total Intragovernmental Liabilities                                                        $                  2,467,676       $                        2,646,398

Federal Employee and Veterans’ Benefits                                                                         268,952                                  261,352
Environmental and Disposal Liabilities                                                                          977,023                                  998,241
Contingent Liabilities                                                                                          440,456                                  450,335

Total Liabilities Not Covered by Budgetary Resources                                       $                  4,154,107       $                        4,356,326
Total Liabilities Covered by Budgetary Resources                                           $                  3,133,179       $                        2,996,689
Total Liabilities                                                                          $                  7,287,286       $                        7,353,015

Other Information

Intragovernmental Liabilities – Debt is comprised of the amount owed by USACE to the U.S. Treasury for capital
improvements to the Washington Aqueduct. Arlington County and the City of Falls Church, Virginia provide funding to
USACE to repay the debt. Refer to Note 11, “Debt,” for additional details and disclosures.

Intragovernmental Liabilities – Due to Treasury - General Fund includes offsetting custodial liability to accounts receivable.
The custodial liability is for amounts that will be deposited in the general fund of the U.S. Treasury when collected and
are primarily related to long-term water storage and Louisiana coastal restoration, flood control and hurricane protection
agreements. Budgetary resources are not required for these types of liabilities.

Intragovernmental Liabilities – Other includes Judgment Fund liabilities-Contract Dispute Act (CDA), and workmen’s
compensation liabilities under the Federal Employees Compensation Act (FECA). The FECA liability will be funded in
future appropriations.

Federal Employee and Veterans’ Benefits include actuarial liability for FECA. Refer to Note 13, “Due to Treasury -
General Fund and Other Liabilities,” for additional details and disclosures. The FECA actuarial liability is a future funded
expense and will be funded in future appropriations.

Environmental and Disposal Liabilities represent estimated cleanup costs for environmental liabilities, which will be
funded in future appropriations. Refer to Note 12, “Environmental and Disposal Liabilities,” and Note 13, “Due to
Treasury - General Fund and Other Liabilities,” for additional details and disclosures.
Contingent liabilities represent probable losses related to lawsuits filed against USACE. Contingent liabilities may be
funded in future appropriations. Refer to Note 14 “Contingencies” for additional details and disclosures.

Note 11.	 Debt
As of September 30                                                                          2013
($ in thousands)                                             Beginning Balance         Net Borrowing               Ending Balance
Agency Debt (Intragovernmental)
     Debt to the Treasury                                   $             4,273    $              (2,552)      $               1,721

As of September 30                                                                          2012
($ in thousands)                                             Beginning Balance         Net Borrowing               Ending Balance
Agency Debt (Intragovernmental)
     Debt to the Treasury                                   $             5,114    $                   (841)   $               4,273


Other Information

The outstanding debt consists of interest and principal payments due to the U.S. Treasury. USACE executed three
promissory notes totaling $75.0 million with the U.S. Treasury for capital improvements to the Washington Aqueduct.
USACE entered into agreements with Arlington County and the City of Falls Church, Virginia to provide funding to
USACE to repay the debt. During FY 2013, the city of Falls Church, Virginia provided its entire portion of the funding
to USACE. USACE recognized a receivable for $1.7 million in principal due from Arlington County as of September 30,
2013. The remaining debt balance is scheduled to be paid off in FY 2023. Actual cumulative amount of funds borrowed
from the U.S. Treasury was $74.9 million of which $1.7 million was outstanding at September 30, 2013 and $4.3 million
was outstanding at September 30, 2012. There were no withdrawals from the U.S. Treasury for FY 2013 or FY 2012.
Total principal repayments in FY 2013 were $2.6 million and total principal repayments in FY 2012 were $841 thousand.




                                                                                                                                       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Note 12.	Environmental and Disposal Liabilities
As of September 30
($ in thousands)                                                                   2013                              2012
Formerly Utilized Sites Remedial Action
Program (FUSRAP)                                                          $                 967,478       $                  994,716
Other                                                                                         9,545                            3,525
Total Environmental and Disposal Liabilities                              $                 977,023       $                  998,241

Assumptions and Uncertainties

Estimating environmental liabilities requires making assumptions about future activities and is inherently uncertain. The
cleanup estimates reflect local decisions and expectations as to the extent of cleanup and site reuse, and include assessments
of the effort required to complete the project based on data collected during the remedial investigation and feasibility study
phases of each project. For most projects, the volume of contaminated material to be removed and the cost to dispose of
such material, including transportation, are the elements of the estimates with the greatest uncertainty and potential for
significant increase in project costs. For some projects the estimate includes contingency provisions intended to account
for the uncertainties associated with estimating these elements and other factors.

Based on the inherent uncertainties associated with environmental cleanup the initial cost estimate for each site is not exact
                                                                                                                                                                                                                                Civil Works 55




and will change as more relevant data becomes available. Estimates are refined as alternative approaches are evaluated and
a preferred alternative is approved in a record of decision. USACE recognizes expenses related to cleanup costs during the
period incurred.
56 FY 2013 United States Army Corps of Engineers Annual Financial Report


USACE considers various key factors in determining whether future outflows of resources can be reasonably
estimated, including:

     Completion of remedial investigation/feasibility study or other study,
     Experience with similar site and/or conditions, and
     Availability of remediation technology.

In addition to the liability amount reported above, USACE is subject to other potential environmental liabilities for which
the exact amount or range of loss is unknown.

Formerly Utilized Sites Remedial Action Program

USACE is responsible for the Formerly Utilized Sites Remedial Action Program (FUSRAP), established to respond to
radiological contamination from early U.S. Atomic Energy and Weapons Programs. For each FUSRAP site, USACE has
received Congressional authorization to ascertain the extent of environmental contamination; select a remedy with input
from state and federal authorities and local stakeholders; perform the cleanup work; and dispose of wastes. After cleanup
work is completed at each site, USACE transfers responsibility for long-term surveillance and monitoring to the U.S.
Department of Energy.

Changes in the FUSRAP liability during the fiscal years ended September 30, 2013 and 2012 resulted from inflation
adjustments to reflect changes in costs for the current year, cleanup activities performed, and adjustments to estimates of
soil volumes.

Other Environmental Liabilities

Other environmental liabilities relate to environmental contamination at current or former USACE project sites.

Beginning in FY 2013, USACE implemented Technical Bulletin 2006-01, Recognition and Measurement of
Asbestos-Related Cleanup Costs, resulting in an additional environmental liability of approximately $5.6 million as of
September 30, 2013.

Note 13.	 Due to Treasury – General Fund and Other Liabilities
As of September 30                                                                           2013
($ in thousands)                                                Current Liability      Noncurrent Liability       Total
Intragovernmental
     Due to Treasury-General Fund                           $                44,896    $          2,182,574   $       2,227,470
     Advances from Others                                                   361,863                       -             361,863
     Deposit Funds and Suspense Account Liabilities                            (416)                      -                (416)
     Disbursing Officer Cash                                                    727                       -                 727
     Judgment Fund Liabilities                                              189,693                       -             189,693
     FECA Reimbursement to the Department of Labor                           22,354                  25,711              48,065
     Employer Contribution and Payroll Taxes Payable                         31,775                       -              31,775
Total Intragovernmental                                     $               650,892    $          2,208,285   $       2,859,177

    Accrued Funded Payroll and Benefits                     $               430,992    $                  -   $         430,992
    Advances from Others                                                    360,846                       -             360,846
    Deferred Credits                                                      1,092,309                       -           1,092,309
    Deposit Funds and Suspense Accounts                                      14,557                       -              14,557
    Contract Holdbacks                                                       60,097                       -              60,097
    Contingent Liabilities                                                  440,456                       -             440,456
Total Other Liabilities                                     $             3,050,149    $          2,208,285   $       5,258,434
As of September 30                                                                         2012
($ in thousands)                                               Current Liability     Noncurrent Liability       Total
Intragovernmental
     Due to Treasury-General Fund                          $               197,217   $          2,210,988   $       2,408,205
     Advances from Others                                                  550,502                      -             550,502
     Deposit Funds and Suspense Account Liabilities                            509                      -                 509
     Disbursing Officer Cash                                                 1,691                      -               1,691
     Judgment Fund Liabilities                                             183,443                      -             183,443
     FECA Reimbursement to the Department of Labor                          22,281                 28,196              50,477
     Employer Contribution and Payroll Taxes Payable                        30,299                      -              30,299
Total Intragovernmental                                    $               985,942   $          2,239,184   $       3,225,126

    Accrued Funded Payroll and Benefits                    $               476,961   $                  -   $         476,961
    Advances from Others                                                    44,748                      -              44,748
    Deferred Credits                                                       972,087                      -             972,087
    Deposit Funds and Suspense Accounts                                     11,161                      -              11,161
    Contract Holdbacks                                                      68,300                      -              68,300
    Contingent Liabilities                                                 450,335                      -             450,335
Total Other Liabilities                                    $             3,009,534   $          2,239,184   $       5,248,718

Other Information

Intragovernmental - Due to Treasury – General Fund is the custodial liability held with U.S. Treasury for repayment of
interest and accounts receivable which, when collected, will be deposited in the U.S. Treasury. USACE records a custodial
liability for payables from water storage and hydraulic mining contracts and for flood control, coastal restoration and
hurricane protection measures with the Coastal Protection and Restoration Authority of Louisiana.

Judgment Fund Liabilities - USACE has recognized an unfunded liability arising from Judgment Fund Contract Disputes




                                                                                                                                Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Act (CDA) settlements in accordance with a provision of the CDA requiring agencies to reimburse the Judgment Fund for
payments to claimants in cases involving federal contract disputes. USACE cannot fund the CDA claims since it is funded
for projects and does not receive funding for this type of claim. USACE sought supplemental appropriations for payment
of CDA claims in FY 2000, FY 2006, and FY 2007, but these requests were not approved. The FY 2013 budget does not
provide funding for payment of the CDA claims.

Note 14.	Contingencies
Legal Contingencies

The USACE is a party in various administrative proceedings and legal actions related to claims for environmental damage,
tort actions, and contractual bid protests. The USACE has accrued contingent liabilities for legal actions where USACE’s
Office of the Chief Counsel considers an adverse decision probable and the amount of loss is measurable. In the event
of an adverse judgment against the Government, some of the liabilities may be payable from the U.S. Treasury Judgment
Fund. USACE discloses amounts recognized as contingent liabilities in Note 13, “Due to Treasury – General Fund and
Other Liabilities.”

The U.S. Army Claims Service (USARCS) supervises processing, investigates, adjudicates, and negotiates the settlement
of non-contractual administrative claims on behalf of and against the Department of the Army (including USACE);
                                                                                                                                                                                                                         Civil Works 57




however, because of their uniqueness and size, the hurricane Katrina-related administrative claims are processed by the U.S.
Department of Justice (DOJ). By law, administrative claims filed against the Government are either adjudicated, denied,
or are effectively denied if no action is taken within six months from the claim filing date. Barring such resolution within
six months from the date of filing, claimants may file legal cases with the Federal Court. Filing of an administrative claim
for resolution is a required precursor to a claimant’s filing against the Government in Federal Court.
58 FY 2013 United States Army Corps of Engineers Annual Financial Report


Claims settled below the statutory threshold of $2,500 are paid using Civil Works appropriations; settlements above this
threshold are referred to the Judgment Fund for payment. With the exception of CDA settlements disclosed in Note 13,
amounts that are paid by the Judgment Fund are recorded as expenses and imputed financing sources.

Probable Likelihood of an Adverse Outcome

The USACE is subject to potential liabilities where adverse outcomes are probable, and claims are approximately
$440.5 million and $450.3 million as of September 30, 2013 and 2012, respectively. The contingent liabilities were
included in Note 13.

Reasonably Possible Likelihood of an Adverse Outcome

The USACE is subject to potential liabilities where adverse outcomes are reasonably possible, and claims ranged
from $11 to $7.2 billion as of September 30, 2013. At September 30, 2012, reasonably possible claims ranged from
$428.8 thousand to $8.3 billion.

Hurricane Katrina-Related Claims and Litigation

Various parties filed administrative claims and lawsuits against USACE as a result of hurricane Katrina in 2005. Most of
the Katrina-related litigation was consolidated before a single federal judge sitting in the Federal District Court in New
Orleans. The court, for case management purposes, classified the individual cases into three categories and ordered the
filing of superseding, master complaints in most categories: Levee, Mississippi River Gulf Outlet (MRGO), and Barge.
The MRGO category, Barge category, and Levee category, involving similar geographic areas, are most relevant to USACE
at this point. All Katrina-related tort litigation has now concluded in favor of the Government.

Concerning the Levee Master consolidated class action complaint, the Court granted the United States’ motion to dismiss.
By Order entered on October 14, 2010, the Court certified this decision as a final judgment. On September 24, 2012,
the U.S. Fifth Circuit Court of Appeals issued a substitute ruling affirming the trial court order of dismissal. The plaintiffs
appealed this decision on the Supreme Court in other matters, but did not appeal the relevant holding in this matter,
effectively ending the litigation.

In the MRGO litigation, the Plaintiffs initial appeal of the trial court’s holding in favor of the Government was dismissed.
In light of the Supreme Court’s decision in Robinson, the plaintiffs indicated that they will not reinstate their appeal. The
judge signed an order of dismissal in the case in June 2013.

In the Ingram Barge case, by Order entered June 22, 2009, the Court severed and stayed the third party claims of Lafarge
against the United States until 90 days after a decision is rendered by the Fifth Circuit in Robinson or until 90 days after a
final resolution of Robinson by the Supreme Court in the event that a writ of certiorari is sought, or until the passage of 18
months from the Order, whichever date is sooner. This Order grants the United States’ motion brought as a result of the
Court’s stay issued on May 4, 2009 in the MRGO category. As a result, the United States did not participate in the trial
conducted in 2010, in which the Court found that the barge did not cause the two floodwall breaches. Plaintiffs’ claims
have now been dismissed in their entirety.

In the Robinson case, after a trial court previously had ruled against the Government, the Fifth circuit, on September 24,
2012, reversed its own prior opinion and affirmed all judgments in favor of the government and reversed all judgments in
favor of the plaintiffs. The plaintiffs appealed the decision to the Supreme Court. On 24 June 2013, the Supreme Court
denied the appeal, effectively ending the litigation.

In light of the resolution of these Katrina tort litigation cases, all pending Katrina administrative claims (350,000) are
expected to be formally denied by the Government in the near future. The Department of Justice is currently working with
USARCS on the logistics of issuing several hundred thousand claim denial notification letters.
Other Litigation

In addition to the matters described above, USACE is subject to other potential liabilities for which the exact amount or
range of loss is unknown.

Commitments and Other Contingencies

The USACE does not have undelivered orders for open contracts citing cancelled appropriations which may remain
unfilled or unreconciled, and for which the reporting entity may incur a contractual commitment for payment.

The USACE does not have contractual arrangements which may require financial obligations, such as fixed price contracts
with escalation, price redetermination, or incentive clauses, which may require future financial obligations.

Note 15.	General Disclosures Related to the Statement of Net Cost
Year ended September 30
($ in thousands)                                                                 2013                       2012
Intragovernmental Costs                                                 $               1,671,544     $             1,645,279
Public Costs                                                                            8,291,797                   9,382,051
Total Costs                                                             $               9,963,341     $            11,027,330

Intragovernmental Earned Revenue                                        $               (2,288,527)   $            (2,624,632)
Public Earned Revenue                                                                     (622,374)                  (893,025)
Total Earned Revenue                                                    $               (2,910,901)   $            (3,517,657)

Net Cost of Operations                                                  $               7,052,440     $             7,509,673

Other Information




                                                                                                                                 Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Intragovernmental costs and revenue are related to transactions made between two reporting entities within the
Federal Government. Public costs and revenues are exchange transactions made between the reporting entity and a
nonfederal entity.

The consolidated Statement of Net Cost (SNC) is unique because its principles are driven on understanding the net cost of
programs and/or organizations that the Federal Government supports through appropriations or other means. The SNC
represents the Civil Works Program for USACE.

USACE incurred no costs associated with acquiring, constructing, improving, reconstructing or renovating heritage assets.

Note 16.	 Disclosures Related to the Statement of Changes in Net
          Position
Other Information

Appropriations received on the Statement of Budgetary Resources (SBR) should not and do not agree with appropriations
received on the Statement of Changes in Net Position (SCNP) due to differences between proprietary and budgetary
accounting concepts and reporting requirements. The difference is due to additional resources of $1.0 billion during
FY 2013 and $1.9 billion during FY 2012 in appropriated trust, contributed, and special fund receipts included in
                                                                                                                                                                                                                          Civil Works 59




Appropriation on the SBR. These funds do not update the proprietary appropriations received amount reported on the
SCNP. Refer to Note 17, “Statement of Budgetary Resources,” for additional disclosures and details.
60 FY 2013 United States Army Corps of Engineers Annual Financial Report



Note 17.	 Disclosures Related to the Statement of Budgetary
          Resources
As of September 30
($ in thousands)                                                                       2013                   2012
Net Amount of Budgetary Resources Obligated for Undelivered Orders at the End of
     the Period                                                                    $          6,434,941   $          6,928,329

Other Information

Category A apportionments distribute budgetary resources by fiscal quarter. Category B apportionments distribute
budgetary resources by activity, project, object or a combination of these categories. Exempt budgetary resources are not
subject to apportionment because they are not appropriated funds. Funding sources for exempt category comes from
sources outside the Federal Government.

For FY 2013, the amount of direct and reimbursable obligations incurred against amounts apportioned under Category
A SBR includes: $8.2 billion for direct obligations; $9.7 billion for reimbursable obligations; and $47.5 million for
reimbursable obligations exempt from apportionment. USACE did not report any direct obligations exempt from
apportionment. USACE has no apportionments under Category B. Undelivered orders presented in the SBR include
undelivered orders-unpaid for both direct and reimbursable funds.

For FY 2012, the amount of direct and reimbursable obligations incurred against amounts apportioned under Category
A SBR includes: $8.2 billion for direct obligations; $10.1 billion for reimbursable obligations; and $51.5 million for
reimbursable obligations exempt from apportionment. USACE did not report any direct obligations exempt from
apportionment. USACE has no apportionments under Category B. Undelivered orders presented in the SBR include
undelivered orders-unpaid for both direct and reimbursable funds.

Intraentity transactions have not been eliminated because the SBR is presented as a combined statement.

Permanent Indefinite Appropriations - USACE receives receipts from hydraulic mining in California; leases of land
acquired for flood control, navigation, and allied purposes; and licenses under the Federal Power Act for improvements of
navigable water including maintenance and operation of dams. These funds are available for expenditure.

There are no legal arrangements that affect the use of unobligated balances of budget authority.

There are differences between amounts reported on the SBR and the SF133, Report on Budget Execution (SF133) for
FY 2013 and FY 2012. Treasury account symbol 96X6094 (Advances from the District of Columbia) is not included in
the SF133. This money is not from appropriated funds and is not included in the OMB’s data for budget formulation.
USACE does include this appropriation in the SBR.

The President’s Budget with actual figures for FY 2013 has not yet been published. The FY 2015 President’s Budget will
include actual figures for FY 2013 reporting. The FY 2015 President’s Budget can be found at: http://www.whitehouse.
gov/omb, early in FY 2014. The following chart is a reconciliation of the FY 2014 President’s Budget actual figures for
FY 2012 to FY 2012 Statement of Budgetary Resources as required by OMB Circular No. A-136.
                                                             Department of Defense
                                                    U.S. Army Corps of Engineers - Civil Works
                         Reconciliation of FY 2012 SBR to 2014 President’s Budget

                         Budgetary    Obligations       Offsetting
                         Resources     Incurred         Receipts      Net Outlays
($ in millions)          Line 1930    Line 0900        Line 0299      Line 4190
SBR                         26,961       18,351              553           8,335                  Explanation for reconciling differences
                                                                                  Expired American Recovery and Reinvestment Act (ARRA) accounts
Reconciling Difference         (50)           (35)                                are included in the SBR, but not the President’s Budget.
                                                                                  The SBR includes Treasury symbol 96X6094 for advances from
                                                                                  the District of Columbia for work on the Washington Aqueduct.
                                                                                  It is not included in the President’s Budget since these are not
Reconciling Difference         (69)           (51)                            (5) appropriated funds.
                                                                                  General fund clearing accounts are included as distributed
                                                                                  offsetting receipts on the SBR in accordance with DFAS yearend
Reconciling Difference                                         (92)               guidance. It is not included in the President’s Budget amount.
                                                                                  The President’s Budget line 0299 includes total receipts and
                                                                                  collections for the trust funds. The SBR includes only USACE’s
                                                                                  distributed offsetting receipts to South Dakota Terrestrial Wildlife
                                                                                  Fund per Treasury Financial Manual, Federal Account Symbols and
                                                                                  Titles (FAST Book). Other trust fund receipts are included in the
Reconciling Difference                                      1,680                 budgetary resources, line 0299.
                                                                                  Per the FAST Book, receipt account 96R 5125 is not a distributed
                                                                                  offsetting receipt account and is not included in the SBR as a
                                                                                  distributed offsetting receipt. It is included in the President’s
Reconciling Difference                                          8                 Budget amount.
Total                      26,842        18,265             2,149          8,330
President’s Budget         26,842        18,264             2,148          8,330
Difference                      0            (1)               (1)            (0) Due to rounding.




                                                                                                                                                         Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
                                                                                                                                                                                                                                                  Civil Works 61
62 FY 2013 United States Army Corps of Engineers Annual Financial Report



Note 18.	Reconciliation of Net Cost of Operations (Proprietary)
         to Budget
Year ended September 30
($ in thousands)                                                                       2013                      2012
Resources Used to Finance Activities:
Budgetary Resources Obligated:
Obligations incurred                                                               $           17,917,199    $           18,351,033
Less: Spending authority from offsetting collections and recoveries                           (11,143,432)              (11,126,177)
Obligations net of offsetting collections and recoveries                                        6,773,767                 7,224,856
Less: Offsetting receipts                                                                        (806,706)                 (552,645)
Net obligations                                                                                 5,967,061                 6,672,211
Other Resources:
Donations and forfeitures of property                                                              2,462                       266
Transfers in/out without reimbursement                                                           135,538                   136,029
Imputed financing from costs absorbed by others                                                  306,695                   325,537
Net other resources used to finance activities                                                   444,695                   461,832
Total resources used to finance activities                                         $           6,411,756     $           7,134,043
Resources Used to Finance Items Not Part of the Net Cost of Operations:
Change in budgetary resources obligated for goods, services and benefits ordered
     but not yet provided:
     Undelivered Orders                                                            $             493,391     $            1,761,497
     Unfilled Customer Orders                                                                    (78,630)                (1,053,829)
Budgetary offsetting collections and receipts that do not affect Net Cost of
     Operations                                                                                  321,904                   152,385
Resources that finance the acquisition of assets                                                  (5,162)                   (7,007)
Other resources or adjustments to net obligated resources that do not affect Net
     Cost of Operations:
     Other                                                                                      (190,500)                 (174,835)
Total Resources Used to Finance Items not Part of the Net Cost of Operations       $             541,003     $             678,211
Total Resources Used to Finance the Net Cost of Operations                         $           6,952,759     $           7,812,254
Components of the Net Cost of Operations that will not Require or Generate
     Resources in the Current Period:
Components Requiring or Generating Resources in Future Period:
Change in environmental and disposal liability                                     $             (21,218)    $              (80,351)
Change in exchange revenue receivable from the public                                            117,441                    (86,645)
Other                                                                                              1,558                     19,484
Total components of Net Cost of Operations that will not Require or Generate
     Resources in future periods                                                   $              97,781     $            (147,512)
Components not Requiring or Generating Resources:
Depreciation and amortization                                                      $             643,444     $             636,732
Revaluation of assets or liabilities                                                              20,903                     1,424
Other
     Cost of Goods Sold                                                                               814                       373
     Operating Material and Supplies Used                                                          17,584                         7
     Cost Capitalization Offset                                                                 (781,942)                (1,024,698)
     Other                                                                                        101,097                   231,093
Total Components of Net Cost of Operations that will not Require or Generate
     Resources                                                                                      1,900                 (155,069)
Total components of Net Cost of Operations that will not Require or Generate
     Resources in the Current Period                                                              99,681                  (302,581)
Net Cost of Operations                                                             $           7,052,440     $           7,509,673
Other Information

The following note schedule lines are presented as combined instead of consolidated due to intraentity budgetary
transactions not being eliminated:

       Obligations Incurred
       Spending Authority from Offsetting Collections and Recoveries
       Obligations Net of Offsetting Collections and Recoveries
       Offsetting Receipts
       Net Obligations
       Undelivered Orders
       Unfilled Customer Orders

Composition of Other Resources – Other, and Other Resources or Adjustments to Net Obligated Resources that do not
affect Net Cost of Operations: Other – The FY 2013 and FY 2012 amounts include the net amount of assets transferred
between USACE and other government agencies.

Composition of Components Requiring or Generating Resources in Future Periods: Other - The FY 2013 amounts include
the current year increase to unfunded Judgment Fund Contract Disputes Act claims and Federal Employees’ Compensation
(FECA) actuarial liability. The FY 2013 amounts also include the current year decrease to the FECA liability. The
FY 2012 amount includes current year Judgment Fund Contract Disputes Act claims and current year unfunded expense
for the FECA liability.

Composition of Components not Requiring or Generating Resources: Other – The FY 2013 and FY 2012 amounts
include bad debt expense and cost capitalization offset expense. The cost capitalization offset account provides a




                                                                                                                                Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
mechanism to offset all direct costs in the expense accounts when those costs are subsequently capitalized into an in-process
account. Current year costs associated with nonfederal cost share projects in the contributed fund and costs related to
the acquisition of operating materials and supplies in the revolving fund are also recorded as other expenses not requiring
budgetary resources. In FY 2013 and FY 2012 costs associated with fish mitigation studies in the general fund are also
recorded as other expenses not requiring budgetary resources.




                                                                                                                                                                                                                         Civil Works 63
64 FY 2013 United States Army Corps of Engineers Annual Financial Report



Note 19.	Funds from Dedicated Collections
As of September 30                                                                   FY 2013
                                           Maintenance                                                              Consolidated
                                                             Contributed Fund    Other Funds       Eliminations
($ in thousands)                              Fund                                                                     Total
BALANCE SHEET
ASSETS
Fund balance with Treasury                 $     107,468       $   1,093,463     $       91,372    $   5,269,034    $    6,561,337
Investments                                    7,877,544                   -                  -                -         7,877,544
Accounts and Interest Receivable                 448,808               3,941              1,795           (2,945)          451,599
Other Assets                                     659,626              30,041                959                -           690,626
Total Assets                               $   9,093,446       $   1,127,445     $       94,126    $   5,266,089    $   15,581,106
LIABILITIES and NET POSITION
Accounts Payable and Other Liabilities            13,001           1,125,444                107           (3,396)        1,135,156
Total Liabilities                          $      13,001       $   1,125,444     $          107    $      (3,396)   $    1,135,156
Cumulative Results of Operations               9,080,445               2,001             94,019        5,269,485        14,445,950
Total Liabilities and Net Position         $   9,093,446       $   1,127,445     $       94,126    $   5,266,089    $   15,581,106

STATEMENT OF NET COST
    Year ended September 30
Program Costs                              $    145,272        $     340,939     $       15,986    $     (53,398)   $      448,799
Less Earned Revenue                                   -             (366,944)                 -              145          (366,799)
Net Program Costs                          $    145,272        $      (26,005)   $       15,986    $     (53,253)   $       82,000
Net Cost of Operations                     $    145,272        $     (26,005)    $       15,986    $     (53,253)   $       82,000

STATEMENT OF CHANGES IN NET POSITION
    Year ended September 30
Net Position Beginning of the Period       $   8,377,235       $        4,847    $       87,116    $   4,241,254    $   12,710,452
Net Cost of Operations                           145,272             (26,005)            15,986          (53,253)           82,000
Budgetary Financing Sources                      848,553                    -            24,571          942,539         1,815,663
Other Financing Sources                               (71)           (28,851)            (1,682)          32,439             1,835
Change in Net Position                     $     703,210       $       (2,846)   $        6,903    $   1,028,231    $    1,735,498
Net Position End of Period                 $   9,080,445       $        2,001    $       94,019    $   5,269,485    $   14,445,950

As of September 30                                                                   FY 2012
                                           Maintenance                                                              Consolidated
                                                             Contributed Fund    Other Funds       Eliminations
($ in thousands)                              Fund                                                                     Total
BALANCE SHEET
ASSETS
Fund balance with Treasury                 $     102,746       $     979,219     $       81,458    $   4,241,096    $    5,404,519
Investments                                    7,112,147                   -                  -                -         7,112,147
Accounts and Interest Receivable                 475,359               2,660              5,532           (7,342)          476,209
Other Assets                                     700,665              30,998                937                -           732,600
Total Assets                               $   8,390,917       $   1,012,877     $       87,927    $   4,233,754    $   13,725,475
LIABILITIES and NET POSITION
Accounts Payable and Other Liabilities            13,682           1,008,030                811           (7,500)        1,015,023
Total Liabilities                          $      13,682       $   1,008,030     $          811    $      (7,500)   $    1,015,023
Cumulative Results of Operations               8,377,235               4,847             87,116        4,241,254        12,710,452
Total Liabilities and Net Position         $   8,390,917       $   1,012,877     $       87,927    $   4,233,754    $   13,725,475

STATEMENT OF NET COST
    Year ended September 30
Program Costs                              $      38,739       $     464,408     $       17,146    $     (53,085)   $      467,208
Less Earned Revenue                                    -            (499,196)                 -              233          (498,963)
Net Program Costs                          $      38,739       $      (34,788)   $       17,146    $     (52,852)   $      (31,755)
Net Cost of Operations                     $      38,739       $     (34,788)    $       17,146    $     (52,852)   $      (31,755)

STATEMENT OF CHANGES IN NET POSITION
    Year ended September 30
Net Position Beginning of the Period       $   7,598,849       $      12,085     $       82,560    $   3,126,032    $   10,819,526
Net Cost of Operations                            38,739             (34,788)            17,146          (52,852)          (31,755)
Budgetary Financing Sources                      836,548                    -            24,291          996,135         1,856,974
Other Financing Sources                          (19,423)            (42,026)            (2,589)          66,235             2,197
Change in Net Position                     $     778,386       $       (7,238)   $        4,556    $   1,115,222    $    1,890,926
Net Position End of Period                 $   8,377,235       $        4,847    $       87,116    $   4,241,254    $   12,710,452
Other Disclosures

All intragovernmental activity within USACE between funds from dedicated collections and other funds has been
eliminated from the consolidated total column.

USACE funds from dedicated collections are presented by fund type vice individual fund due to the volume of individual
funds from dedicated collections based on SFFAS No. 27, Identifying and Reporting Earmarked Funds as amended by
SFFAS No. 43, Funds from Dedicated Collections: Amending Statement of Federal Financial Accounting Standards 27,
Identifying and Reporting Earmarked Funds.

There has been no change in legislation during or subsequent to the reporting periods and before the issuance of the
financial statements that significantly changes the purpose of these funds or that redirects a material portion of the
accumulated balances.

USACE has the following Funds from Dedicated Collections as of September 30, 2013 and 2012:

Maintenance Fund

Harbor Maintenance Trust Fund (HMTF). This fund was established by Title XIV of the Water Resources Development
Act (the Act) of 1986, Public Law 99-662. The HMTF is authorized to recover 100% of USACE eligible operation and
maintenance (O&M) expenditures for the maintenance of commercial navigation in harbors and channels as well as 100%
of the O&M cost of St. Lawrence Seaway by the St. Lawrence Seaway Development Corporation. As provided in the
Act, amounts in HMTF shall be available for making expenditures to carry out the functions specified in the Act and for
the payment of all expenses of administration incurred by the U.S. Treasury, USACE, and the Department of Commerce.
Collections are made into the trust fund from fees assessed on port use associated with imports, imported merchandise
admitted into a foreign trade zone, passengers, and movements of cargo between domestic ports. The collections are
invested and investment activity is managed by BFS. The revenue is received from the public and is an inflow of resources




                                                                                                                                Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
to the government. This fund utilizes receipt and expenditure accounts in accounting for and reporting the fund.

Contributed Fund

Rivers and Harbors Contributed and Advance Funds. These funds are authorized by Title 33 USC 701h, 702f, and 703,
establishes funding to construct, improve, and maintain levees, water outlets, flood control, debris removal, rectification
and enlargement of river channels, etc., in the course of flood control and river/harbor maintenance. Whenever any state
or political subdivision thereof shall offer to advance funds for a flood control project duly adopted and authorized by
law, the Secretary may at his discretion, receive such funds and expend the same in the immediate prosecution of such
work. Advances are from the public and are inflows of resources to the government. This fund utilizes both receipt and
expenditure accounts in accounting for and reporting the fund.

Other Funds

Coastal Wetlands Restoration Trust Fund. This fund is authorized by Title 16 USC 3951-3956. This title grants parallel
authority to USACE, along with the Environmental Protection Agency, and the Fish and Wildlife Service to work with
the state of Louisiana to develop, review, evaluate, and approve a plan that is proposed to achieve a goal of “no net loss of
wetlands” in coastal Louisiana. USACE is also responsible for allocating the funds from dedicated collections among the
named task force members. Federal contributions of the dedicated collections are established at 75% of project costs or
                                                                                                                                                                                                                         Civil Works 65




85% if the state has an approved Coastal Wetlands Conservation Plan. This fund is an expenditure account and receives
funding transfers from the Sport Fish Restoration and Boating Trust Fund, a trust with collections from excise taxes on
fishing equipment, motorboat and small engine fuels, import duties, and interest.
66 FY 2013 United States Army Corps of Engineers Annual Financial Report


Inland Waterways Trust Fund (IWTF). This fund is authorized by Title 26 USC 9506. The title made IWTF available for
USACE expenditures for navigation, construction, and rehabilitation projects on inland waterways. Collections into the
trust fund are from excise taxes on fuel used in commercial transportation on inland waterways. The revenue is received
from the public and is an inflow of resources to the government. The collections are invested and investment activity is
managed by the BFS. This fund utilizes receipt and expenditure accounts in accounting for and reporting the fund.

Special Recreation Use Fees. Title 16 United States Code (USC) 4601-6a granted USACE the authority to charge and
collect fair and equitable Special Recreation Use Fees at recreation facilities and campgrounds located at lakes or reservoirs
under the jurisdiction of USACE. Types of allowable fees include daily use fees, admission fees, recreational fees,
annual pass fees, and other permit type fees. The revenue is received from the public and is an inflow of resources to the
government. The purpose of the fund is to maintain and operate the recreation and camping facilities.

Hydraulic Mining in California. Debris, Title 33 USC 683 states that those operating hydraulic mines through which
debris flows in part or in whole to a body restrained by a dam or other work erected by the California Debris Commission
shall pay a tax as determined by the Federal Power Commission, now known as the Federal Energy Regulatory
Commission (FERC). The tax is paid annually on a date fixed by FERC. Taxes imposed under this code are collected
and then expended under the supervision of USACE and the direction of the Department of the Army. The revenue is
received from the public and is an inflow of resources to the government. The purpose of the fund is for repayment of
funds advanced by the Federal Government or other agencies for construction, restraining works, settling reservoirs, and
maintenance.

Payments to States. Flood Control Act of 1954, Title 33 USC 701c-3, established that 75% of all funds received and
deposited from the leasing of lands acquired by the U.S. for flood control, navigation and allied purposes, including the
development of hydroelectric power, shall be returned to the state in which the property is located. USACE collects lease
receipts into a receipt account. The revenue is received from the public and is an inflow of resources to the government.
Funds are appropriated in the amount of 75% of the receipts in the following fiscal year and disbursed to the states. The
funds may be expended by the states for the benefit of public schools and public roads of the county, or counties, in which
such property is situated, or for defraying any of the expense of county government.

Maintenance and Operation of Dams and Other Improvements of Navigable Waters. Title 16 USC 803f, 810, states that
whenever a reservoir or other improvement is constructed by the U.S., FERC shall assess charges against any licensee
directly benefited, and any amount so assessed shall be paid into the U.S. Treasury. The title further states that all charges
arising from other licenses, except those charges established by FERC for purpose of administrative reimbursement,
shall be paid to the U.S. Treasury from which specific allocations will be made. From the specific allocations, 50% of
charges from all other licenses is reserved and appropriated as a special fund in the U.S. Treasury. This special fund is to
be expended under the direction of the Secretary of the Army (Secretary) for the maintenance and operation of dams and
other navigation structures that are owned by the U.S. or for construction, maintenance, or operation of headwater or
other improvements of U.S. navigable waters. The revenue is received from the public and is an inflow of resources to the
government.

Fund for Nonfederal Use of Disposal Facilities (for dredged material). This fund was established by Title 33 USC
2326a. This title provides that the Secretary may permit the use of any dredged material disposal facility under the
jurisdiction of, or managed by, the Secretary by a nonfederal interest if the Secretary determines that such use will not
reduce the availability of the facility for project purposes. The Secretary may impose fees to recover capital, operation
and maintenance costs associated with such use. Any monies received through collection of fees under this law shall be
available to the Secretary, and shall be used by the Secretary, for the operation and maintenance of the disposal facility from
which the fees were collected. The revenue is received from the public and is an inflow of resources to the government.

Special funds utilize both receipt and expenditure accounts in accounting for and reporting the fund.
Note 20.	Leases
As of September 30
($ in thousands)                                                                        Asset Category
                            2013                                Building Space              Other                  Total
ENTITY AS LESSEE Operating Leases
Future Payments Due
Fiscal Year
    2014                                                    $              74,444   $                    248   $            74,692
    2015                                                                   75,149                         42                75,191
    2016                                                                   76,012                         36                76,048
    2017                                                                   76,901                         22                76,923
    2018                                                                   77,690                         18                77,708
    After 5 Years                                                         404,873                         47               404,920
Total Future Lease Payments Due                             $             785,069   $                    413   $           785,482

As of September 30, 2013, USACE has various non-cancelable operating leases mainly for office space and storage facilities
maintained by many USACE Districts. Many of these leases contain clauses to reflect inflation and renewal options.
USACE has no assets under capital lease.

As of September 30
($ in thousands)                        2013 Easements
ENTITY AS LESSOR
Operating Leases
     2014                           $               4,422
     2015                                           3,249
     2016                                           2,743
     2017                                           2,119




                                                                                                                                     Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
     2018                                           1,800
After 5 Years                                       6,114
Total Future Lease Payments         $              20,447

USACE also has a small volume of operating leases for mostly easements. Private companies and individuals lease
easements from USACE to operate marinas, restaurants, and other businesses on USACE lands.




                                                                                                                                                                                                                              Civil Works 67
68 FY 2013 United States Army Corps of Engineers Annual Financial Report



FY 2013 Required Supplementary Stewardship Information (RSSI)
Unaudited, See Accompanying Auditor’s Report
                                               NONFEDERAL PHYSICAL PROPERTY
                             Investment in Physical Property Owned by State and Local Governments
(Amount in millions)
Categories                             FY 2013            FY 2012            FY 2011            FY 2010       FY 2009
Funded Assets:
    Cost Share Projects                      $1,356             $1,413             $2,273            $2,104        $1,198
Total                                        $1,356             $1,413             $2,273            $2,104        $1,198

The United States Army Corps of Engineers (USACE) – Civil Works incurs investments in Nonfederal Physical Property
for the construction of physical property owned by state and local governments. USACE has the authority to enter into
cost sharing agreements with nonfederal sponsors which are governed under numerous Water Resources Development Acts
starting with the Act of 1986.

Investment values included in this report are based on Nonfederal Physical Property expenditures.
FY 2013 Required Supplementary Information (RSI)
Unaudited, See Accompanying Auditor’s Report

As of September 30, 2013

Real Property Deferred Maintenance and Repairs

Deferred maintenance and repair is defined as maintenance and repairs not performed when it should have been or was
scheduled to be but delayed for a future period. Deferred maintenance and repair for FY 2013 was $3.1 billion for Other
Structures. Operations managers identify the operation and maintenance (O&M) needs at each project in the Civil Works
inventory. The O&M needs are based on inspections of project features, engineering analyses and historical experience.

Heritage Asset Condition

Condition of heritage assets is based on factors such as quality of design and construction, location, adequacy of
maintenance performed, and continued usefulness. The United States Army Corps of Engineers (USACE) – Civil Works
heritage assets overall condition is deemed to be fair; therefore, no significant deferred maintenance has been assessed.

Disaggregated Schedule of Budgetary Resources by Major Fund

Statement of Federal Financial Accounting Standard 7 Accounting for Revenue and Other Financing Sources and Concepts
for Reconciling Budgetary and Financial Accounting requires information be presented by major budget account. USACE
– Civil Works presents information by major fund which USACE believes provides a better presentation, as the USACE –
Civil Works is a single program and aligns with our funding and management of the program.




                                                                                                                            Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
                                                                                                                                                                                                                     Civil Works 69
70 FY 2013 United States Army Corps of Engineers Annual Financial Report


                                                        US Army Corps of Engineers - Civil Works

                      COMBINED STATEMENT OF BUDGETARY RESOURCES - Unaudited
For the year ended September 30, 2013
(in thousands)                                           FUSRAP               Special Funds           Trust Funds       Borrowing Authority       Revolving Funds
Budgetary Resources
Unobligated balance brought forward, October 1      $           3,938     $             3,241     $         191,236     $                4    $           502,875
Recoveries of prior year unpaid obligation                        576                     126                57,849                      -                 92,642
Other changes in unobligated balance                                -                       -                     -                      -                      -
Unobligated balance from prior year budget
     authority, net                                             4,514                  3,367                249,085                      4                595,517
Appropriations (discretionary and mandatory)                   99,921                 18,655                976,063                      -                      -
Spending Authority from offsetting collections                 20,569                  3,062                      -                     31              8,164,050
Total Budgetary Resources                           $         125,004     $           25,084      $       1,225,148     $               35    $         8,759,567

Status of Budgetary Resources:
Obligations Incurred                                $         118,568     $           14,002      $         968,891     $               31    $         8,142,957
Unobligated balance, end of year
    Apportioned                                                 6,436                 11,082                256,242                      -                      -
    Exempt from Apportionment                                       -                      -                      -                      4                616,610
    Unapportioned                                                   -                      -                     15                      -                      -
Unobligated balance brought forward, end of year                6,436                 11,082                256,257                      4                616,610
Total Budgetary Resources                           $         125,004     $           25,084      $       1,225,148     $               35    $         8,759,567

Change in Obligated Balance:
Unpaid obligations, brought forward,
    October 1 (gross)                               $          48,404 $                5,799 $              303,121 $                    - $            1,216,531
Obligations incurred                                          118,568                 14,002                968,891                     31              8,142,957
Outlays (gross) (-)                                          (101,496)               (18,190)            (1,003,130)                   (31)            (8,067,702)
Recoveries of prior year unpaid obligations (-)                  (576)                  (126)                (57,849)                    -                 (92,642)
Unpaid Obligations, end of year (gross)                        64,900                  1,485                211,033                      -              1,199,144
Uncollected payments, Federal sources, brought,
    October 1                                                   (3,253)                       -                     -                     -              (139,965)
Change in uncollected customer payments from
    Federal Sources (+ or -)                                    1,013                         -                     -                     -                 8,759
Uncollected payments, Federal sources, end
    of year (-)                                                 (2,240)                    -                      -                       -              (131,206)
Obligated balance, start of year (net)                         45,151                  5,799                303,121                       -             1,076,566
Obligated balance, end of year (net)                $          62,660 $                1,485      $         211,033     $                 -   $         1,067,938

Budget Authority and Outlays, Net:
Budget authority, gross
     (discretionary and mandatory)                $           120,490     $           21,716      $         976,063     $               31    $         8,164,050
Actual offsetting collections
     (discretionary and mandatory) (-)                        (21,582)                 (3,061)                      -               (2,583)            (8,172,809)
Change in uncollected customer payments from
     Federal Sources
     (discretionary and mandatory) (+ or -)                     1,013                         -                     -                     -                 8,759
Budget Authority, net
     (discretionary and mandatory)                $            99,921     $           18,655      $         976,063     $           (2,552) $                   -
Outlays, gross (discretionary and mandatory)                  101,496                 18,190              1,003,130                     31              8,067,702
Actual offsetting collections
     (discretionary and mandatory) (-)                        (21,582)                 (3,061)                    -                 (2,583)            (8,172,809)
Outlays, net (discretionary and mandatory)                     79,914                 15,129              1,003,130                 (2,552)              (105,107)
Distributed offsetting receipts                                     -                (66,190)                     -                      -                      -
Agency Outlays, net (discretionary and mandatory) $            79,914 $              (51,061) $           1,003,130     $           (2,552) $            (105,107)

The accompanying notes are an integral part of these financial statements.
                                                        US Army Corps of Engineers - Civil Works

                      COMBINED STATEMENT OF BUDGETARY RESOURCES - Unaudited
For the year ended September 30, 2013
(in thousands)                                       Contributed Funds         General Funds         FUSRAP ARRA            General ARRA          2013 Combined
Budgetary Resources
Unobligated balance brought forward, October 1      $         663,719      $        7,231,123 $                     -   $           13,941    $        8,610,077
Recoveries of prior year unpaid obligation                      8,919                 223,452                       -               31,786               415,350
Other changes in unobligated balance                                -                      (32)                     -                    -                    (32)
Unobligated balance from prior year budget
     authority, net                                           672,638              7,454,543                        -               45,727             9,025,395
Appropriations (discretionary and mandatory)                  484,802              8,852,304                        -                     -           10,431,745
Spending Authority from offsetting collections                  1,183              2,637,589                        -                (4,648)          10,821,836
Total Budgetary Resources                           $       1,158,623      $      18,944,436     $                  -   $           41,079 $          30,278,976

Status of Budgetary Resources:
Obligations Incurred                                $         479,938      $        8,155,927    $                  -   $           36,885    $       17,917,199
Unobligated balance, end of year
    Apportioned                                                     -             10,764,279                        -                   -             11,038,039
    Exempt from Apportionment                                 678,686                 24,217                        -                   -              1,319,517
    Unapportioned                                                   -                     12                        -               4,194                  4,221
Unobligated balance brought forward, end of year              678,686             10,788,508                        -               4,194             12,361,777
Total Budgetary Resources                           $       1,158,624      $      18,944,435     $                  -   $          41,079     $       30,278,976

Change in Obligated Balance:
Unpaid obligations, brought forward,
    October 1 (gross)                               $         315,613 $             6,170,944 $                 39 $               314,281 $           8,374,732
Obligations incurred                                          479,938               8,155,927                    -                   36,885           17,917,199
Outlays (gross) (-)                                          (371,739)             (8,310,546)                 (39)               (189,683)          (18,062,556)
Recoveries of prior year unpaid obligations (-)                 (8,919)              (223,452)                   -                  (31,786)            (415,350)




                                                                                                                                                                     Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Unpaid Obligations, end of year (gross)                       414,893               5,792,873                    -                 129,697             7,814,025
Uncollected payments, Federal sources, brought,
    October 1                                                     (113)            (2,018,561)                      -              (14,835)           (2,176,727)
Change in uncollected customer payments from
    Federal Sources (+ or -)                                         (2)              213,620                       -              11,995                235,385
Uncollected payments, Federal sources, end
    of year (-)                                                  (115)             (1,804,941)                      -               (2,840)           (1,941,342)
Obligated balance, start of year (net)                        315,500               4,152,383                      39             299,446              6,198,005
Obligated balance, end of year (net)                $         414,778 $             3,987,932 $                     -   $         126,857 $            5,872,683

Budget Authority and Outlays, Net:
Budget authority, gross
     (discretionary and mandatory)                $           485,985      $      11,489,894     $                  -   $           (4,648) $         21,253,581
Actual offsetting collections
     (discretionary and mandatory) (-)                          (1,181)            (2,754,904)                      -               (7,347)          (10,963,467)
Change in uncollected customer payments from
     Federal Sources
     (discretionary and mandatory) (+ or -)                          (2)              213,620                       -              11,995                235,385
Budget Authority, net
     (discretionary and mandatory)                $           484,802      $        8,948,610    $                  -   $               -     $       10,525,499
Outlays, gross (discretionary and mandatory)                  371,739               8,310,546                      39             189,683             18,062,556
Actual offsetting collections
     (discretionary and mandatory) (-)                          (1,181)            (2,754,904)                      -               (7,347)          (10,963,467)
                                                                                                                                                                                                                                                              Civil Works 71




Outlays, net (discretionary and mandatory)                    370,558               5,555,642                      39             182,336              7,099,089
Distributed offsetting receipts                              (484,802)               (255,714)                      -                    -              (806,706)
Agency Outlays, net (discretionary and mandatory) $          (114,244) $            5,299,928 $                    39   $         182,336 $            6,292,383

The accompanying notes are an integral part of these financial statements.
72 FY 2013 United States Army Corps of Engineers Annual Financial Report


                                                        US Army Corps of Engineers - Civil Works

                      COMBINED STATEMENT OF BUDGETARY RESOURCES - Unaudited
For the year ended September 30, 2012
(in thousands)                                           FUSRAP              Special Funds           Trust Funds       Borrowing Authority       Revolving Funds
Budgetary Resources
Unobligated balance brought forward, October 1      $           4,634    $             4,358     $         187,726     $                4    $           236,319
Recoveries of prior year unpaid obligation                          -                      -                     -                      -                      -
Other changes in unobligated balance                                -                      -                     -                      -                      -
Unobligated balance from prior year budget
     authority, net                                             4,634                 4,358                187,726                      4                236,319
Appropriations (discretionary and mandatory)                  109,000                20,709              1,457,597                      -                      -
Spending Authority from offsetting collections                  4,715                     -               (422,779)                    90              8,747,806
Total Budgetary Resources                           $         118,349    $           25,067      $       1,222,544 $                   94    $         8,984,125

Status of Budgetary Resources:
Obligations Incurred                                $         114,411    $           21,826      $       1,031,308     $               90    $         8,481,250
Unobligated balance, end of year
    Apportioned                                                 3,938                 3,241                191,236                      -                      -
    Exempt from Apportionment                                       -                     -                      -                      4                502,875
    Unapportioned                                                   -                     -                      -                      -                      -
Unobligated balance brought forward, end of year                3,938                 3,241                191,236                      4                502,875
Total Budgetary Resources                           $         118,349    $           25,067      $       1,222,544     $               94    $         8,984,125

Change in Obligated Balance:
Unpaid obligations, brought forward,
    October 1 (gross)                               $          85,881 $               1,875 $              272,476 $                    - $            1,432,462
Obligations incurred                                          114,411                21,825              1,031,308                     90              8,481,251
Outlays (gross) (-)                                          (151,888)              (17,901)            (1,000,664)                   (90)            (8,697,182)
Recoveries of prior year unpaid obligations (-)
Unpaid Obligations, end of year (gross)                        48,404                 5,799                303,120                       -             1,216,531
Uncollected payments, Federal sources, brought,
    October 1                                                 (10,690)                       -                     -                     -              (182,667)
Change in uncollected customer payments from
    Federal Sources (+ or -)                                    7,437                        -                     -                     -                42,703
Uncollected payments, Federal sources, end
    of year (-)                                                 (3,253)                   -                      -                       -              (139,964)
Obligated balance, start of year (net)                         75,191                 1,875                272,476                       -             1,249,795
Obligated balance, end of year (net)                $          45,151 $               5,799      $         303,120     $                 -   $         1,076,567

Budget Authority and Outlays, Net:
Budget authority, gross
     (discretionary and mandatory)                $           113,714    $           20,709      $       1,034,819     $               90    $         8,747,806
Actual offsetting collections
     (discretionary and mandatory) (-)                        (12,151)                       -                     -                 (931)            (8,790,509)
Change in uncollected customer payments from
     Federal Sources
     (discretionary and mandatory) (+ or -)                     7,437                        -                     -                     -                42,703
Budget Authority, net
     (discretionary and mandatory)                $           109,000    $           20,709      $       1,034,819     $             (841) $                   -
Outlays, gross (discretionary and mandatory)                  151,888                17,901              1,000,664                     90              8,697,182
Actual offsetting collections
     (discretionary and mandatory) (-)                         (12,151)                   -                      -                   (931)            (8,790,509)
Outlays, net (discretionary and mandatory)                    139,737                17,901              1,000,664                   (841)               (93,327)
Distributed offsetting receipts                                      -              (60,045)                     -                      -                      -
Agency Outlays, net (discretionary and mandatory) $           139,737 $             (42,144) $           1,000,664     $             (841) $             (93,327)

The accompanying notes are an integral part of these financial statements.
                                                        US Army Corps of Engineers - Civil Works

                      COMBINED STATEMENT OF BUDGETARY RESOURCES - Unaudited
For the year ended September 30, 2012
(in thousands)                                       Contributed Funds         General Funds         FUSRAP ARRA           General ARRA          2012 Combined
Budgetary Resources
Unobligated balance brought forward, October 1      $         592,889      $        7,450,596 $                    4   $           51,958    $        8,528,488
Recoveries of prior year unpaid obligation                          -                  93,459                      -                   24                93,483
Other changes in unobligated balance                                -                   (1,664)                    -                    -                 (1,664)
Unobligated balance from prior year budget
     authority, net                                           592,889              7,542,391                       4               51,982             8,620,307
Appropriations (discretionary and mandatory)                  400,260              5,654,287                       -                     -            7,641,853
Spending Authority from offsetting collections                  2,283              2,368,560                       -                (1,725)          10,698,950
Total Budgetary Resources                           $         995,432      $      15,565,238     $                 4   $           50,257 $          26,961,110

Status of Budgetary Resources:
Obligations Incurred                                $         331,713      $        8,334,115    $                 4   $           36,316    $       18,351,033
Unobligated balance, end of year
    Apportioned                                                     -              7,213,526                       -                  12              7,411,953
    Exempt from Apportionment                                 663,719                 17,585                       -                   -              1,184,183
    Unapportioned                                                   -                     12                       -              13,929                 13,941
Unobligated balance brought forward, end of year              663,719              7,231,123                       -              13,941              8,610,077
Total Budgetary Resources                           $         995,432      $      15,565,238     $                 4   $          50,257     $       26,961,110

Change in Obligated Balance:
Unpaid obligations, brought forward,
    October 1 (gross)                               $         473,871 $             7,252,681 $             13,367 $              872,844 $          10,405,457
Obligations incurred                                          331,713               8,334,115                    5                 36,315            18,351,033
Outlays (gross) (-)                                          (489,971)             (9,322,392)             (13,332)              (594,855)          (20,288,275)
Recoveries of prior year unpaid obligations (-)                     -                  (93,459)                  -                     (24)              (93,483)




                                                                                                                                                                    Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
Unpaid Obligations, end of year (gross)                       315,613               6,170,945                   40                314,280             8,374,732
Uncollected payments, Federal sources, brought,
    October 1                                                        (4)           (2,825,007)                     -              (79,333)           (3,097,701)
Change in uncollected customer payments from
    Federal Sources (+ or -)                                      (109)               806,446                      -              64,497                920,974
Uncollected payments, Federal sources, end
    of year (-)                                                  (113)             (2,018,561)                   -                (14,836)           (2,176,727)
Obligated balance, start of year (net)                        473,867               4,427,674               13,367               793,511              7,307,756
Obligated balance, end of year (net)                $         315,500 $             4,152,384 $                 40     $         299,444 $            6,198,005

Budget Authority and Outlays, Net:
Budget authority, gross
     (discretionary and mandatory)                $           402,543      $        8,022,847    $                 -   $           (1,725) $         18,340,803
Actual offsetting collections
     (discretionary and mandatory) (-)                          (2,174)            (3,085,131)                     -              (62,772)          (11,953,668)
Change in uncollected customer payments from
     Federal Sources
     (discretionary and mandatory) (+ or -)                       (109)               806,446                      -              64,497                920,974
Budget Authority, net
     (discretionary and mandatory)                $           400,260      $        5,744,162    $               -     $               -     $        7,308,109
Outlays, gross (discretionary and mandatory)                  489,971               9,322,392               13,332               594,855             20,288,275
Actual offsetting collections
     (discretionary and mandatory) (-)                          (2,174)            (3,085,131)                   -                (62,772)          (11,953,668)
                                                                                                                                                                                                                                                             Civil Works 73




Outlays, net (discretionary and mandatory)                    487,797               6,237,261               13,332               532,083              8,334,607
Distributed offsetting receipts                              (400,260)                 (92,340)                  -                      -              (552,645)
Agency Outlays, net (discretionary and mandatory) $            87,537 $             6,144,921 $             13,332     $         532,083 $            7,781,962

The accompanying notes are an integral part of these financial statements.
74 FY 2013 United States Army Corps of Engineers Annual Financial Report




                                       [This page left intentionally blank.]
                                                                     Civil Works 75
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
76 FY 2013 United States Army Corps of Engineers Annual Financial Report
                                                                     Civil Works 77
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
78 FY 2013 United States Army Corps of Engineers Annual Financial Report
                                                                     Civil Works 79
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
80 FY 2013 United States Army Corps of Engineers Annual Financial Report
                                                                     Civil Works 81
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
82 FY 2013 United States Army Corps of Engineers Annual Financial Report
                                                                     Civil Works 83
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
84 FY 2013 United States Army Corps of Engineers Annual Financial Report
                                                                     Civil Works 85
Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report
86 FY 2013 United States Army Corps of Engineers Annual Financial Report
                         We are interested in your feedback regarding the content of this report.
                      Please feel free to e-mail your comments to AAFS@hqda.army.mil or write to:

                                            Department of the Army
                                   Office of the Deputy Assistant Secretary of the Army
                                         (Financial Management and Comptroller)
                                       Office of the Financial Reporting Directorate
                                            Room 3A312, 109 Army Pentagon
                                               Washington, DC 20310-0109
Additional copies of this report can be obtained by sending a written request to the e-mail or mailing address listed above.
                    You may also view this document at: http://www.asafm.army.mil/fo/fod/cfo/cfo.asp
The Soldier’s Creed
I am an American Soldier.
I am a Warrior and a member of a team.
I serve the people of the United States
and live the Army Values.

I will always place the mission first.
I will never accept defeat.
I will never quit.
I will never leave a fallen comrade.

I am disciplined, physically and mentally tough,
trained and proficient in my warrior tasks and
drills. I always maintain my arms,
my equipment and myself.

I am an expert and I am a professional.

I stand ready to deploy, engage, and
destroy the enemies of the United States
of America in close combat.

I am a guardian of freedom and the
American way of life.

I am an American Soldier.

United States Army : 1500 Army Pentagon : Washington, DC, 20310-1500 : www.army.mil
